<html>
<title> - [H.A.S.C. No. 112-149]UNITED STATES FORCE POSTURE IN THE UNITED STATES PACIFIC COMMAND AREA OF RESPONSIBILITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-149]
 
                   UNITED STATES FORCE POSTURE IN THE

                     UNITED STATES PACIFIC COMMAND

                         AREA OF RESPONSIBILITY

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             AUGUST 1, 2012

                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS3

                                     


                  U.S. GOVERNMENT PRINTING OFFICE
75-671                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               LARRY KISSELL, North Carolina
VICKY HARTZLER, Missouri             BILL OWENS, New York
BOBBY SCHILLING, Illinois            TIM RYAN, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
TIM GRIFFIN, Arkansas                JACKIE SPEIER, California
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
               David Sienicki, Professional Staff Member
                Brian Garrett, Professional Staff Member
                    Nicholas Rodman, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, August 1, 2012, United States Force Posture in the 
  United States Pacific Command Area of Responsibility...........     1

Appendix:

Wednesday, August 1, 2012........................................    37
                              ----------                              

                       WEDNESDAY, AUGUST 1, 2012
 UNITED STATES FORCE POSTURE IN THE UNITED STATES PACIFIC COMMAND AREA 
                           OF RESPONSIBILITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Berteau, David J., Senior Vice President and Director of 
  International Security Program, Center for Strategic and 
  International Studies..........................................     7
Green, Dr. Michael J., Senior Advisor and Japan Chair, Center for 
  Strategic and International Studies............................     5
Helvey, David F., Acting Deputy Assistant Secretary of Defense 
  for East Asia, U.S. Department of Defense......................    24
Scher, Robert, Deputy Assistant Secretary of Defense for Plans, 
  U.S. Department of Defense.....................................    23

                                APPENDIX

Prepared Statements:

    Berteau, David J., joint with Dr. Michael J. Green...........    43
    Forbes, Hon. J. Randy........................................    41
    Scher, Robert, joint with David F. Helvey....................    59

Documents Submitted for the Record:

    Comments from Hon. Leon Panetta, Secretary of Defense, on 
      ``U.S. Force Posture Strategy in the Asia Pacific Region: 
      An Independent Assessment'' (CSIS).........................   178
    ``U.S. Force Posture Strategy in the Asia Pacific Region: An 
      Independent Assessment,'' by the Center for Strategic and 
      International Studies (David J. Berteau and Michael J. 
      Green, Co-Directors).......................................    69

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   185
    Mr. Forbes...................................................   185
    Ms. Hanabusa.................................................   185
    Mr. Gregorio Kilili Camacho Sablan, a Delegate from the 
      Northern Mariana Islands...................................   185

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   189
    Mr. Sablan...................................................   196
    Mr. Schilling................................................   194
    Ms. Speier...................................................   191
 UNITED STATES FORCE POSTURE IN THE UNITED STATES PACIFIC COMMAND AREA 
                           OF RESPONSIBILITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Wednesday, August 1, 2012.
    The subcommittee met, pursuant to call, at 2:22 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. I want to welcome our members and our 
distinguished panel of experts to today's hearing that will 
focus on the Pacific Command and an independent assessment of 
the U.S. defense posture in the region.
    I have had the opportunity to review the Center for 
Strategic and International Studies' report and was very 
impressed with the thoroughness of the assessment and the depth 
of study associated with the recommendations. The ability to 
pull together such a comprehensive document in the short time 
provided is indicative of the expertise provided to this report 
and the value the think-tank community can play in the 
policymaking process.
    My compliments to both of our witnesses.
    To quote the report, ``Today, six of the 10 fastest-growing 
major export markets for the United States are in Asia, and 60 
percent of U.S. goods exported abroad go to the region.'' 
Meanwhile, the region is home to five of the eight states 
recognized as being in possession of nuclear weapons, three of 
the world's top six defense budgets, six of the world's largest 
militaries, continuing tensions between India and Pakistan, and 
territorial disputes stretching from the northern territories 
of Japan through East and South China Seas and into South Asia.
    It is for these reasons and many more that a rebalance to 
the Pacific theater is in our strategic interest. Our 
subcommittee has long supported this strategic rebalance, and I 
believe that a forward-based credible presence is essential to 
supporting our economic interests.
    In previous discussions of the Marine Corps realignment 
from Okinawa, I had expressed my concern on the overall cost 
associated with the realignment of forces. However, earlier 
this year, the Department of Defense offered an alternative 
force structure proposal that includes a reduction of forces in 
Okinawa and realigns the Marine Corps into Marine air-ground 
task force elements in Okinawa, Guam, Australia, and Hawaii.
    I am pleased to note that the overall costs appear to have 
been significantly reduced while security posture may be 
further enhanced. Rarely in Washington do we encounter a 
proposal that both saves money and expands capabilities. But I 
think that we have encountered such a proposal in the latest 
agreement between the United States and the Government of 
Japan.
    I am glad that our witnesses today appear to have reached 
the same conclusion.
    I believe in maintaining peace through strength. I believe 
that a strong economy requires a strong military to protect the 
free flow of goods around the world. And I believe that the 
Asia-Pacific theater provides a valuable key to the continued 
prosperity of the United States, and it is in our strategic 
interest to ensure peace in the region.
    I must admit, I do wonder whether such a Pacific rebalance 
as we are discussing today will be hollowed by the debate 
associated with sequestration and the decisions associated with 
the Budget Control Act. I think that we internalize the impacts 
of sequestration to the force structure of the United States, 
but I am equally worried as to the message that could be 
provided to our partners and allies.
    I look forward to also discussion how our withdrawal of 
forces from overseas that could follow a sequestration decision 
and the additional reductions already included in the Budget 
Control Act could be perceived by our partners and allies.
    As to our hearing today, we intend to have two panels of 
witnesses. The first panel will be the principal authors of the 
report entitled, ``U.S. Force Posture Strategy in the Asia 
Pacific Region: An Independent Assessment.'' The second panel 
will be representatives of the Department of Defense.
    Joining us on the first panel are two distinguished 
witnesses and authors of this independent report from the 
Center for Strategic and International Studies, Mr. David J. 
Berteau, Senior Vice President and Director of International 
Security Program, and Dr. Michael J. Green, Senior Adviser and 
Japan Chair.
    Gentlemen, we thank you both for being here and for the 
expertise that you bring to our subcommittee this afternoon.
    I would now like to recognize the ranking member, Ms. 
Bordallo, for any remarks that she may have.
    Ms. Bordallo.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 41.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And thank you for calling this hearing to order. We have 
waited for some time for this much-anticipated report to be 
released. So I am glad that we have a chance to begin to 
dissect its findings in this hearing.
    To our witnesses, I thank you also, and I look forward to 
our question-and-answer period.
    The recently released report by the Center for Strategic 
and International Studies on U.S. force posture strategy in the 
Asia-Pacific region was authorized by Section 346 of last 
year's defense authorization bill. And this report has cost our 
taxpayers about $1 million to complete. But the results were 
helpful, informing our dialogue in Congress about the refocus 
in the Asia-Pacific region.
    Broadly speaking, the report reaffirmed the Obama 
administration's refocus on the Asia-Pacific region. The report 
states that overall the Department of Defense is reasonably 
well positioned to align and focus U.S. force posture in the 
Asia-Pacific region. This conclusion is critical to ensuring 
that our country remains engaged in this region of the world.
    U.S. engagement in this region of the world is so important 
to our country's economic and political security. I, too, 
believe that more U.S. engagement in the Asia-Pacific region is 
critical. The report helps to contextualize the commitments 
that we must make to our allies in the region to meet a wide 
range of military requirements, including contingencies on the 
Korean Peninsula, humanitarian and disaster response in 
Southeast Asia, support for our Pacific Island allies, as well 
as for ensuring the free flow of goods in the maritime domain.
    While the report discusses a broad range of issues 
regarding our military posture in the Asia-Pacific region, it 
is important to note that the report validates the distributed 
laydown for the Marine Corps in this region.
    In fact, the report clearly states that the Department of 
Defense must implement the April 2012 U.S.-Japan Security 
Consultative Committee's agreement to disperse four Marine air-
ground task forces across the Pacific. The report reaffirms 
that our country and leaders in Congress must move forward 
implementing the distributed laydown. Not doing so would have 
dire consequences for the trust of our allies in the region. 
And among those lines the report states, and I quote--``The 
current impasse between the Department of Defense and the 
Congress is not cost-free in terms of U.S. strategic influence 
in the region.''
    While there do remain several questions about the specifics 
of the realignment in the Pacific that I hope the Department 
will be able to address, the distributed laydown as validated 
by this report supports our country's strategic interest in the 
region.
    We must get on with realignments in the Pacific or risk 
undermining our efforts in this critical region.
    So I hope that our witnesses will be able to comment on the 
broader implications to our posture in the Pacific should the 
Congress refuse to take concrete actions that demonstrate our 
commitment to the region, such as funding projects associated 
with the distributed laydown.
    I would also highlight that the report concluded work is 
needed to support civilian infrastructure on Guam. The report 
cautions of the impact of creating two worlds. We don't want to 
develop a situation where the military has the best of 
everything and our civilian community is left with the impact 
of their presence without adequate infrastructure.
    I hope our witnesses can comment on the importance of 
addressing civilian infrastructure on Guam and how that could 
further enable a robust Marine Corps presence on our island.
    I also hope that our witnesses can touch on why the report 
indicates that it is important for DOD [Department of Defense] 
to take the lead on addressing these civilian infrastructure 
challenges.
    In conclusion, Mr. Chairman, I appreciate the efforts of 
the CSIS's [Center for Strategic and International Studies'] 
report, lead co-authors Mr. Green and Mr. Berteau. I know there 
was a significant effort put in place to meet the very 
stringent deadlines of this very report.
    And, again, I appreciate that this report broadly validates 
the Obama administration's refocus on the Asia-Pacific region 
and the importance of this strategic initiative.
    It cannot be emphasized enough how important it is to get 
our strategic posture right for this region to ensure safety 
and stability for the years to come.
    And Mr. Chairman, I would also like to mention the fact 
that we have present during this hearing my fellow congressman 
from the Northern Marianas, Mr. Kilili Sablan.
    And I yield back, and I look forward to the questions and 
the answer period.
    Mr. Forbes. Thank you for those remarks, Madeleine.
    As we discussed prior to the hearing, I asked unanimous 
consent that it be made in order to depart from regular order 
so that members may ask questions that follow the train of 
thought from the proceeding member.
    I think this will provide a roundtable-type forum and will 
enhance the dialogue on these very important issues.
    Without objection, so ordered.
    I also would like to ask unanimous consent that other 
committee and non-committee members be allowed to participate 
in today's hearing after all subcommittee members have had an 
opportunity to ask questions.
    Is there any objection?
    Without objection, non-subcommittee members will be 
recognized at the appropriate time for 5 minutes.
    Mr. Sablan, we are glad to have you join us today and be 
with us.
    And I also ask unanimous consent that the entirety of the 
independent assessment and the comments provided by the 
Department of Defense that were provided in the official 
transmittal of the report also be included in the record.
    [The information referred to can be found in the Appendix 
on pages 69 and 178.]
    Mr. Forbes. Without objection, so ordered.
    And Dr. Green, it is my understanding that you are going to 
be going first. And we look forward to your statement.
    And with that, we turn the floor over to you and recognize 
you for your remarks.

  STATEMENT OF DR. MICHAEL J. GREEN, SENIOR ADVISOR AND JAPAN 
     CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Green. Mr. Chairman, Ranking Member Bordallo and 
members of the subcommittee, thank you for this opportunity for 
us to report on our findings from the independent assessment of 
U.S. force posture strategy in the Asia-Pacific.
    Let me also thank our colleagues in the Department of 
Defense and the commands within the Pacific and the allied and 
partner governments and military forces we met with. We had 
almost 300 interviews, weeks of travel time in the region, and 
couldn't have completed this in a timely way without their 
help.
    We conclude in the report that the American people continue 
to receive enormous dividends from our forward posture in Asia, 
but that much of the force posture is based on Cold War legacy 
basing arrangements and that it needs to be realigned.
    And we agree in the report that the Department of Defense 
is moving in generally the right direction to do that and that 
most of the known elements of their plan will get us there. But 
we do have in the report some specific areas where we recommend 
either reconsideration or refinement, and we thought that more 
could be done to articulate the strategy comprehensively to the 
Congress within the U.S. Government and to our allies and 
partners. Let me focus on that strategic piece, and my 
colleague will talk about the specific recommendations.
    Asia has never been more important to our future than it is 
today, but we also face significant challenges: North Korean 
proliferation, natural disasters like the one we saw in Japan 
last March. But in many ways the central question we face is 
how China's growing power is going to affect regional order, 
stability and progress. And our view was that our strategy for 
force posture has to have this as one of the guiding essential 
tenets for how we think about our forces and our partnerships 
in the region.
    We do not believe that this requires a strategy of 
containing China or that the sole or even central purpose of 
our force posture should be to prepare to fight with China.
    I thought President Obama put it well early last year when 
he said, ``We have a stake in China's success; they have a 
stake in our success.''
    But in order to build a mutually respectful and beneficial 
relationship with China, it is critical that our forces are 
part of a strategy that help us win the peace, that create an 
environment where countries want to cooperate. They don't want 
to challenge the status quo. They don't want to challenge the 
rules that have been championed by the U.S. and our allies for 
many decades.
    This involves more than just military forces: trade, 
diplomacy, the attraction of our political values are all 
important instruments. But a central pillar has to be how we 
position our forces in the region.
    Part of what our forward posture does for us is shape a 
more cooperative peacetime environment; and part of what it 
does is position us to deter challengers from taking us on.
    And let me briefly mention how we fill those requirements 
in both areas.
    In terms of shaping the peacetime environment, we think a 
persistent forward engagement does several things for us. 
First, it assures our allies and partners of our security 
commitments. It encourages solidarity among them and with us so 
that no one will challenge them, and they won't feel they have 
to hedge, capitulate, or perhaps unilaterally escalate.
    Second, it helps us dissuade China from thinking--or North 
Korea or anyone from thinking that coercion will pay off, by 
demonstrating our commitment and our solidarity with allies and 
partners.
    Third, it helps to shore up the capacity of states to deal 
with their own security problems. The Philippines are an 
excellent example of this. We need all of these countries to be 
able to deal with internal challenges, natural disasters, 
terrorism, to have maritime domain awareness, so that we don't 
have vacuums or instability that creates larger disorder that 
in a way exacerbates our relationship with Beijing.
    A forward posture that is persistent and engaged also helps 
us get ready in case we need to use force. It allows us to 
shape the doctrine, requirements, tactics, techniques of our 
allies--critical part of this.
    It allows us to network with allies and among allies; for 
example, the U.S., Japan, and Korea. It allows our forces to 
get much greater familiarity with the security environment and 
the counterparts they would work with. None of this you can do 
from the continental U.S. alone. You have to have forward 
posture.
    It increases maritime domain awareness for our allies and 
partners, but for everyone who has a stake in open and secure 
sea lanes; complicates the planning of adversaries, because it 
demonstrates through access arrangements, prepositioning, 
overflight arrangements that we are prepared to fulfill our 
security commitments. And it can help us identify off-ramps and 
ways to manage crises with countries as we interact with their 
military forces, in particular China.
    A few guiding principles as we go forward. First, we have 
to be careful not to ask for access arrangements or commitments 
where the answer will be no, because if the answer is no we 
lose influence. We lose the ability to shape the environment.
    Second, we have to show that the U.S. has skin in the game. 
As Congresswoman Bordallo noted, if we are not willing to 
invest ourselves in some of these new facilities, it is going 
to be a hard case for us to make to allies and partners that 
they should do it or that we are committed to our Asia-Pacific 
strategy.
    At the same time, we were not able to validate many of the 
long-term budget estimates in the DOD planning we saw. So there 
is going to have to be an interactive, iterative process, we 
think, between Congress and the Defense Department to deal with 
these issues.
    And finally there are certain areas--lift, for example--
where we think more needs to be done to enhance our force 
structure, because as we distribute our posture more, we are 
going to have more requirements for lift, and we also face new 
challenges such as A2/AD [Anti-Access/Area Denial], and these 
are areas that my colleague David Berteau will get into.
    Thank you.
    [The joint prepared statement of Dr. Green and Mr. Berteau 
can be found in the Appendix on page 43.]
    Mr. Forbes. Thank you, Dr. Green.
    Mr. Berteau.

   STATEMENT OF DAVID J. BERTEAU, SENIOR VICE PRESIDENT AND 
    DIRECTOR OF INTERNATIONAL SECURITY PROGRAM, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Berteau. Thank you, Mr. Chairman. Waiting for my mike 
to pick up here.
    Thank you, Mr. Chairman, Ranking Member Bordallo, members 
of the subcommittee.
    I am going to talk briefly about not the strategic 
framework, which Dr. Green just covered, but the specific 
recommendations that we made in our report.
    We were directed by Section 346 of the National Defense 
Authorization Act to look at options. And what we did is we 
actually came up with a set of four different options that we 
evaluated. We ended up not recommending an option. We used the 
evaluation of those options to develop our recommendations.
    And we evaluated them on four sets of criteria. The 
geostrategic impact, which gets back to the strategic framework 
that Mike just talked about. The operational impact in terms of 
our military capability and our ability to executive our 
operational plans, both at the high end and at the low end. The 
affordability question--how does it fit with the budget and 
what are the budgetary impacts. And the issue of how feasible 
they are--whether or not you actually can implement these kinds 
of recommendations.
    So that was our criteria. We then had four options that we 
looked at. One is status quo: What if you just stayed ``As Is, 
Where Is.'' Everybody is where they are. Because that is your 
baseline, that is your benchmark that you start from.
    The second option was implementing all of the announced 
plans from the Administration. This would include the April 
2012 U.S.-Japan agreement, as modified. It would include plans 
in Korea, et cetera.
    The third option was a more robust option: adding 
additional capability, adding additional U.S. force capability 
to the Pacific region.
    And then the fourth and final option was what we referred 
to internally as the sequestration-friendly option, which is 
big reductions. Right?
    So let me cover those. I am not going to go into the 
options. Let me cover that by way of our five recommendations, 
if you will.
    The first recommendation, and as Dr. Green suggested, a 
huge opportunity at the engagement level, at the lower end of 
the spectrum, with nearly 30 potential partners and allies in 
the region. We need to take advantage of that opportunity, if 
you will.
    We recommend that the way you do that is a more integrated 
strategy involving more from the Pacific Command, connected 
back to Washington, not only to the Office of the Secretary of 
Defense and the Joint Staff, but the broader interagency 
community, including the State Department, connecting to the 
Services, connecting to the Component commands, and connecting 
to the allies and the partners; needs to be developed better, 
articulated better. That was our first recommendation.
    At the same time, though, we have got to live up to the 
commitments we have already made or we lose credibility with 
those very partners with whom we are trying to increase our 
engagement.
    And so you live up to that capability in part by executing 
those commitments, by moving forward on the transfer of the 
Marines from Okinawa to Guam, Australia, Hawaii, et cetera. And 
we recommend that as our second recommendation, with a couple 
of caveats.
    We think there ought to be sort of implementable milestones 
that are reported on regularly to the Congress, so you can see 
the progress on these as you go forward.
    We think that with respect, for example, to investments in 
Guam and the Marianas Islands, that you prioritize those 
investments and start now with the things that are not only 
most important, but that you are going to want to do no matter 
what the long-term force posture is. And that gives you more 
capability to engage with our partners and allies, do combined 
training, do joint exercises, et cetera.
    And then finally, with respect to the relocation from 
Marine Corps Air Station Futenma on Okinawa, which is currently 
agreed that it will be moved to Henoko on a new facility that 
we built, we think you got to go forward with those plans, but 
we also think there needs to be a little bit of thinking about 
a Plan B. What if, in fact, you need to maintain operations and 
you aren't there yet? And so there has got to be some thinking 
go into that. Those are the kinds of caveats that we put in.
    Our third recommendation had to do with Korea, where we 
recommend moving forward again with the existing agreement, the 
strategic agreement for 2015. This is the called OPCON 
[Operational Control] transition, if you will, but with a 
little more robust set of checklists that monitor along the way 
to make sure that the kind of joint capability we need to 
develop is in place. And we also recommend some other basing 
options with respect to Korea.
    Then our fourth recommendation really draws on the expanded 
capability, if you will, because at the same time that you are 
building partnerships, you are executing your current 
commitments, you have to look at really the fundamental of the 
strategic rebalancing.
    And we have a series of recommendations there. For 
instance, we recommend at least one additional attack submarine 
in Guam. We recommend deployment of an amphibious ready group 
to support the distributed marine air-ground taskforce 
arrangements across the Pacific and transferring that rather 
than global resourcing it.
    We recommend some additional munition stockpiles and 
prepositioning stocks, if you will, again to support the 
existing plans, as well as the future plans. And we recommend 
some survivability options for the forces that are already 
deployed there.
    Then finally, in our fifth option, which really derived 
from the sequestration impact, and regardless of whether you 
believe sequestration happens or not, the possibility that some 
future further reductions may occur in the defense budget, if 
you will.
    And what we found there particularly is that you wouldn't 
save much money, even with pretty big force structure 
reductions in the Pacific, but you would lose a heck of a lot 
of capability. And we think that is a pretty bad tradeoff. That 
is kind of the opposite of what you had alluded to in your 
opening comments, Mr. Chairman. You would save very little 
money, you would lose a lot of capability; as opposed to invest 
just a little money and gain a lot of capability.
    So we don't recommend that you do that. We actually think 
that--we strongly recommend that you sustain and build on the 
current force posture in the Pacific region.
    But there are a few places where in fact you could look at 
some efficiencies and some consolidations that might make 
sense, and we recommend that as our fifth and final 
recommendation.
    That is pretty much where we stand on that process. We 
would be happy now, I think, to proceed to your questions and 
amplify and characterize things in any way we can.
    Thank you very much.
    [The joint prepared statement of Mr. Berteau and Dr. Green 
can be found in the Appendix on page 43.]
    Mr. Forbes. Well, thank you both. And I will start off with 
two concepts that I would like to run by you.
    With regard to the new Marine Corps distributed laydown, 
there are many elements of the plan which need further 
development, including the movement of forces to Australia and 
Hawaii. There are also elements related to strategic lift that 
also need to be better analyzed.
    Should the United States move forward with the plans 
associated with the Guam realignment or should we wait for a 
complete plan?
    And then second part of that, what are the implications 
associated with our partners and allies if we continue to delay 
the overall alignment?
    Mr. Berteau. We will consult periodically as who will talk 
first here.
    With respect to the implementation, I think that our 
conclusion--and we have got some detail on this in the report--
is that there are some initial steps that we ought to proceed 
with right away. We have already got a number of marines in 
Australia working initially. The evolution of that engagement, 
I think, will take a few years to become fully realized in 
terms of the full Marine Air-Ground Task Force.
    There are some initial investments in Guam and the Marianas 
that make sense, both in terms of robust infrastructure and in 
terms of training capability that are to some extent not 
dependent on the total number of marines that are going to 
move. They make sense regardless of how many marines move and 
what the schedule is for moving those.
    There are, of course, a number of issues associated with 
timing that tie back to environmental impact statements. We 
actually have a modest recommendation that we advise the 
Department they could probably come up with some perhaps 
improved ways of approaching that to remove some of those time 
lines and come to some decisions more quickly, if you will. 
Those are kind of internal process questions.
    But I think there is a core of both military construction 
and other associated infrastructure and project investments 
that could be done almost immediately. You could actually start 
those this year if the money were available. They are not huge. 
They also would allow us, in fact, to begin to take advantage 
of some of the matching funds from the Japanese Government as 
part of that transition and you do want to take advantage of 
that opportunity.
    Dr. Green. On the question of how our allies and partners 
would view delay, the short and simple answer is it will have a 
negative effect. Prime Minister Noda in Japan committed in 
April to provide over $3 billion for the overall distributed 
MAGTF [Marine Air-Ground Task Force] plan, and in particular 
for the Guam move, in cash. And it was not an easy lift 
politically, and I think it now has pretty robust consensus, 
and we want to sustain that.
    As David said, there are opportunities to leverage that, to 
build what we think are the first and most important elements 
of this, which is the training opportunity, Tinian and CNMI 
[Commonwealth of the Northern Mariana Islands] and so forth.
    Those are particularly important because the Marine 
Corps'--all the Services will have an important role in this, 
but the Marine Corps' role is worth focusing on for just a 
moment.
    The Marines are in many ways, I think, going to be a kind 
of a central clearinghouse for a lot of the engagement we do 
with allies and partners.
    Japan, Australia, Korea, Canada, New Zealand are all 
working on creating their own versions of amphibious-ready 
groups and expeditionary capability, because of the importance 
of island chains; because of the challenges from humanitarian 
disasters and so forth.
    And the training opportunities in Tinian, CNMI, Guam can be 
realized fairly quickly and create opportunities, together with 
the training area in Australia, for getting a variety of forces 
working together on a variety of missions, and in a way that is 
joint and where we share information, and in a way that a 
variety of countries that don't have the capabilities of an 
Australia or a Japan can plug into.
    So you get a lot of engagement and partnership-capacity-
building payoff for moving forward, in particular on the Marine 
piece.
    Mr. Forbes. In your report, you indicated that, and I 
quote--``The top priority of U.S. strategy in Asia is not to 
prepare for a conflict with China. Rather, it is to shape the 
environment so that such a conflict is never necessary and 
perhaps someday inconceivable''.
    What if our efforts to shape the environment in the region 
fail? Do we not ensure a conflict is avoided precisely by 
preparing for it and letting everyone know we are prepared?
    And then the second part of that question is, is there a 
difference between the capabilities, training and regional 
engagement that are focused on shaping the environment for 
peace and those on winning a conflict with China?
    Dr. Green. The answer, Mr. Chairman, is absolutely yes and 
absolutely right.
    I would focus on a distinction between what some people 
call dissuasion and what you might call deterrence. Dissuasion 
is where we are trying to convince, in this case, China, that 
they are much better off, as a strategic matter, operating 
within the system as they have been, focusing on economic 
interdependence, cooperation within the region. And that is 
where the peacetime cooperation and engagement matters.
    Deterrence is if our relationship with China gets to a 
point where Beijing decides it needs to consider military 
force. We want to make it clear that when the PLA [People's 
Liberation Army] goes into the Central Military Commission to 
brief, in the future, Xi Jinping, they cannot say, ``We can win 
this one, boss.'' That is critical.
    So how do you strike a balance between these two?
    Well, in the dissuasion, or peacetime, phase, it is very 
important that our friends in Beijing see that the region is 
committed to the existing order, supports U.S. forward 
presence, and will not accept uses of coercion or force to 
resolve disputes, particularly territorial disputes at sea.
    So we need partners. We need engagement. We need access. If 
we push too hard on forcing allies and partners to commit to 
war-fighting cooperation or access for a China scenario, we are 
going to lose a lot of them. And if we lose a lot of them, we 
are going to find that that dissuasion phase, where we are 
really working on building a cooperative relationship with 
China, is going to be much weaker.
    So we have to walk and chew gum at the same time. And in 
our report, we thought the adjustments that David mentioned, 
submarines, missile defense, lift, that is the kind of thing we 
need to do to ensure we can engage in peacetime, but also that 
we are credible; and not only to potential adversaries but to 
our allies, in case we find deterrence fails.
    Mr. Berteau. Mr. Chairman, if I could add to that, a little 
bit. We looked very hard at the question of the connection 
between, sort of, phase zero engagement and partnership 
capacity and the larger operational plan warfighting capability 
across the region.
    And what we found, in fact, was, at the strategic level, 
the connection is that, at the low end, where you are building, 
you have got, maybe, 25 countries you can build and improve 
your relationships with. And in doing so, you actually have the 
potential to reduce the probability of that large-scale war, 
because you are complicating the planning for the other guys.
    There are a lot more moving parts out there, a lot more 
things that are uncertain to them, a lot more questions in 
their mind about what capability gets brought to bear and when 
and the timing and that sort of thing. Obviously, you can't go 
into too much of that in an unclassified environment. So, at 
the strategic level, you have got a lot to gain just by 
complicating things.
    At the tactical level, in the event you ever get to 
implementing a large operational conflict plan, if you will, 
you have got a whole host of new capabilities that you bring to 
bear that are not just ours unilaterally. And those ebb and 
flow over time. And some of that is just access, overflight 
rights. Some of it is backfill of people who do other things so 
you can free up your forces as well. Some of it is actual 
capability at the high end that you would bring to bear.
    So it is not like a see-saw where it is just us and the 
other country going up and down, right, it is just U.S. and 
China. It is actually one of those see-saws, if you will, that 
has a single pivot point in the middle, but a whole bunch of 
seats around the edge, and it is really balancing 30 different 
pieces simultaneously in a way that sustains our ability to not 
only do what we need to do, but to shape what China does and 
what other potential adversaries do.
    I am a veteran of the Cold War. That is my professional 
childhood is growing up in the Cold War, where it was very 
black and white. We knew who the other guys were. We weren't 
really trying to shape them; we were just trying to stand off 
with them. This is a much more complex and difficult 
environment, and one that I think we are going to have to learn 
as we do and do way better than we have in the past.
    Mr. Forbes. Thank you. Now I would like to recognize the 
gentlelady from Guam, who has obviously been very concerned 
about these issues for a number of years.
    Ms. Bordallo.
    Ms. Bordallo. For a number of years, yes, Mr. Chairman.
    This is a question for either one of you can answer it.
    The CSIS study emphasizes the toll uncertainty can exact in 
our strategic partners' confidence in the strength of the U.S. 
commitment to the Pacific.
    I understand that the report says that we need to move the 
debate beyond that of simple military construction to a broader 
strategic discussion.
    Now, with that in mind, is authorizing and appropriating 
funds for certain MILCON [Military Construction] projects 
directly associated with the realignment a clear and tangible 
sign that the U.S. is committed to strategic engagement in the 
region?
    And, secondly, could you elaborate on what strategic 
capital has been lost by the U.S., given the several years of 
impasse by the Senate in approving certain projects associated 
with this refocus?
    Mr. Berteau. Congresswoman, let me respond to that 
question. I think that there is a direct association, as you 
suggest in your question, between the authorization and 
appropriation into the necessary military construction and 
other operation and maintenance funds to move forward.
    I think there are very powerful signals that get sent.
    I think the degree to which those moving forward of funds 
cannot be connected to a 6-year plan that is still being 
developed puts some boundaries on it. In other words, you only 
want to commit to those things that you are confident are going 
to make sense over the long run. We believe there are a number 
of those that the committee should engage in and look at for 
fiscal year 2013, as we move forward.
    I think, in terms of the signals that that sends, rather 
than look backwards to say what opportunities have we lost, the 
question is what opportunities do we have to gain by moving 
forward? And I think those signals are not only for the 
countries involved but really cut across the entire region.
    So it is not just signals to Japan with respect to movement 
of Marines from Okinawa, but it is really a signal for all the 
countries in the region. I think it is very powerful.
    Ms. Bordallo. And the second part of the question?
    Mr. Berteau. Well, I am sorry. I thought that was actually 
the second part of the question.
    Ms. Bordallo. Well, it was on--could you elaborate on the 
strategic capital that has been lost by the U.S.?
    Mr. Berteau. Right, I can't really measure what has been 
lost. I think we are where we are and we need to focus on what 
we gain by moving forward.
    Ms. Bordallo. Is there anything further you would wish to--
--
    Dr. Green. Well, I mean, it is a matter of record that, 
whenever the Guam relocation plan has stumbled in the Congress, 
it is big news in Japan, because this is a heavy political lift 
for any Japanese Government. We are including going back to the 
Liberal Democratic Party. So in that sense, it costs us.
    As I mentioned, though, we weren't able to validate the 
budget planning for the comprehensive overall distributed 
Marine Corps laydown plan. There are a lot of variables in 
this. We have multiple foreign and local governments, 
environmental impact statements in a fluid strategic 
environment and a fluid defense budgetary environment.
    And that is why we thought, A, it is important to move 
forward. Momentum matters. We have benefited, in a way, from 
Beijing's missteps. And there is a lot of appetite for 
engagement with us. That won't be the case, necessarily, 
forever. We have to show that we are committed to this. So that 
is why we think it is important to move forward.
    But the variables in this plan are going to require much 
greater interaction, as David said, milestones reporting 
between the Congress and the Department of Defense, so that 
there is consensus and confidence moving forward.
    Because what we don't want is unanswered and almost 
unanswerable questions about where we will be in 15 years 
stopping us from doing things we need to do now.
    I have a map in my office of a Navy map from 1910 that 
shows Guam as a critical strategic hub in 1910. We came across 
a report when we were doing our work by a young Marine captain 
named Jim Webb on the importance of Guam in U.S. forward 
strategy in the Pacific. The Jim Webb you are thinking of.
    Ms. Bordallo. Oh, yes, yes----
    Dr. Green [continuing]. And we are there again. So Andersen 
Air Force Base--we recommended some work on survivability for 
the fuel line, a few other things. No matter what happens 
exactly with the plan for the Marine laydown, these are things 
we are going to want. It is a historic and geostrategic 
imperative.
    So we couldn't sign on to everything, but we think momentum 
really matters.
    Ms. Bordallo. Well, thank you.
    Along the lines of the previous question, how important is 
it that we begin to utilize some of the Government of Japan 
funds that we have already received?
    And how could spending these funds on construction projects 
directly associated with the realignment of Marines help 
enhance our strategic capital?
    Dr. Green. Well, it will help. I think some of the early 
investments should focus, as we put in our report, on the 
training opportunities, which benefit Japan strategically and 
operationally, I would argue, and also other allies and 
partners. This is going to require, I think, negotiations. The 
specific amounts and the timing of the funding is a matter that 
has to be worked out with the Government of Japan, and they get 
a vote. But I think there are some opportunities there that the 
Department should be exploring.
    Ms. Bordallo. We haven't drawn down on the $800 million 
that is already deposited in our banks, have we?
    Mr. Berteau. To the best of our knowledge, no. You would 
probably have to ask the DOD witnesses afterwards for the 
latest on that.
    Ms. Bordallo. Again, I have another question, Mr. Chairman, 
for either witness.
    The report looks at expanded roles and missions for 
Andersen Air Force Base on Guam. And I would note that, to my 
dismay, several military construction projects associated with 
the Guam strike were cut last year.
    How important is Andersen Air Force Base to the distributed 
laydown strategy? And what are the practical implications of 
further delay in obtaining the Guam strike capacity?
    Mr. Berteau. We took a look at a number of those elements, 
including the actions by the Congress last year on the request. 
And in particular, we looked at some of the military 
construction projects associated with Andersen from the 
perspective of what is the most effective way to gain 
operational capability across the region for the dollars there.
    We concluded that there is a tradeoff, if you will, between 
some of the MILCON projects and looking at expanded ability for 
dispersal in the event of conflict. And we probably came down 
on a place in that tradeoff that is different than where the 
Department's budget request is. We concluded that in fact 
higher investment in dispersal capability across the region is 
better use of near-term dollars than hardened facilities 
proposed there.
    That, however, should not be taken in any way to reflect 
upon the lack of the value of Andersen Air Force Base. We 
think, in fact, it is one of the strategic hubs going forward 
for the entire region. And if you look at the capability that 
Guam offers to force posture, it is much more than a home base 
for, you know, the Marines and the MEUs [Marine Expeditionary 
Unit] it is moving out of Okinawa. It is also a strategic hub 
for both long-range Air Force capability and in fact for naval 
forces as well, and that Guam should be seen in that context 
across the board.
    Ms. Bordallo. Thank you.
    And, Mr. Chairman, I want to give others a chance to ask 
questions, but I do have a couple more if you have a second 
round.
    Mr. Forbes. We will be glad to let you finish out with some 
questions, Ms. Bordallo.
    Dr. Heck is recognized for 5 minutes.
    Dr. Heck. Thank you, Mr. Chairman.
    In the report, there seems to be some support for certain 
civilian infrastructure improvements in Guam, things that would 
be outside the fence line of the military installation.
    Could you elaborate on what types of infrastructure 
projects or roadway projects you are referring to when we look 
at--if they move the 4.7 thousand troops, it is roughly going 
to be a 5 percent increase in Guam's total population? And 
whether or not that is going to require significant 
infrastructure that DOD should be paying for to support that 
outside the wire?
    Mr. Berteau. Thank you, sir. There are sort of three 
elements to that question, if you will. One is what kinds of 
infrastructure support would be required almost no matter what 
in terms of troops moving in. And there, we focused 
particularly on a couple of items--road improvements so that 
you can actually move back and forth between the port and 
Andersen, and that is really almost independent, if you will, 
of the number of marines; the pipeline that clearly needs to be 
strengthened and bolstered along the way.
    The second has to do with the kinds of infrastructure 
support that would be needed to support the population. And 
clearly, the change in the number of marines moving, and 
particularly the number of family members and dependents that 
would be moving as well--the pretty dramatic reduction--hasn't 
yet been reflected in the off-the-base requirements, if you 
will, the outside-the-wire requirements in Guam. We didn't come 
up with an independent assessment of what those ought to be.
    And the third question, then, is once you settle on what 
those requirements will be, who should pay for them, if you 
will. And there, we struck a kind of an interesting balance. It 
is clearly not always in the purview of the Defense Department 
to pay for those kinds of improvements, if you will.
    But the history of base improvements across not only the 
region, but across America, is that if it is in the Defense 
Department's interests and if you can't operate without those 
kinds of improvements, ultimately DOD faces a choice. Either we 
pay for it ourselves, or we suffer the consequences of it not 
being done, because there is nobody else to pay for it.
    So across America where we have done things, for instance 
when we put the submarine base into Kings Bay, Georgia and the 
other one into Bangor, Washington, an awful lot of Defense 
Department resources were expended outside the wire to build up 
the capability, because we needed to have it.
    And that is a question really that the committee has to 
deal with that is a little above and beyond the purview of our 
study, but I think history says that if it matters a whole lot 
to DOD, ultimately you have to figure out how to pay for it.
    The real question, though, is what is that requirement and 
that is still an open-ended question. We found some things that 
matter right now. You should get started on those--the road, 
the pipeline. There are others where I think we need to wait 
until we see what the total laydown plan is in detail and the 
timetable before we can determine what those are.
    Mr. Forbes. Ms. Hanabusa is recognized for 5 minutes.
    Mrs. Hanabusa. Thank you, Mr. Chair.
    Thank you, gentlemen.
    In reading the introduction of your report, it is 
interesting that you, of course, cite to Secretary Panetta, who 
said that I guess the forces in the future are going to have to 
be geographically distributed, operationally resilient, and 
politically sustainable--almost in and of itself one of the 
most difficult things to even begin to comprehend how we are 
going to do that.
    And then you list things like focus on air superiority and 
mobility, long-range strike, nuclear deterrence, maritime 
access, space and cyberspace, and ISR [Intelligence, 
Surveillance and Reconnaissance] capabilities. The question is 
have it, in reading through your report, there is a lot of 
emphasis, of course, on Marines or MAGTF, as we call it; also 
of the Navy and its presence. But what is lacking is the 
discussion of the Army and not so much directly, the Air Force, 
but definitely lacking the Army. The only real mention I could 
really find was in reference to South Korea and the potential 
drawdown of many of the troops.
    So am I led to believe by reading the report that the--what 
I call ``the military of the future''--I have asked all the 
people who sat in those chairs, ``What does the military of the 
future look like?'' Am I beginning to understand the military 
of the future is going to probably look more like expeditionary 
forces? We have a lot of emphasis on the littoral, or however 
you pronounce it, types of ships planned for Singapore.
    And of course, a good part of the report, though we are not 
looking at conflict with China, we still cannot ignore the fact 
that we do have the A2/AD issue, which then brings in the 
economic components. So who wants to answer first whether this 
issue of what the force looks like in the future is, in your 
mind, has changed and that is why the emphasis on the Marines 
and the naval forces. And believe me, 52 percent of the earth's 
surface, the Pacific Ocean, is PACOM [United States Pacific 
Command]. I understand that, and maybe that is part of the 
answer, but please proceed.
    You can do what we do in Hawaii, which is junk and pull, 
which is paper and stone.
    [Laughter.]
    Mr. Berteau. We have a couple of places where I think a 
careful reading of the report probably is needed to be able to 
determine how we saw the possibility for the Army here. One is 
actually we see an enormous potential for regional dedication 
of units that the Army is already proposing, and but it is pre-
decisional inside the Pentagon, so we are not quite sure where 
that goes.
    But we strongly supported the idea of a dedicated core 
headquarters associated with PACOM. That would allow PACOM as 
it builds its plans for engagement in the region to draw upon 
CONUS [Continental United States]-based forces for a whole host 
of reasons--planning purposes, et cetera.
    We looked in particular, I think, at the robust capability 
that we have of trained brigades and units, with a lot of 
capability. These are veterans now who really know what they 
are doing, both within the active force and within the National 
Guard.
    And that is part of the basis of our recommendation that we 
look hard at using more rotational brigades in Korea so that 
you draw upon the capability that is already existing in the 
Army today and you actually keep that capability up. It gives 
you much more to draw from in the event that we ever get to a 
conflict, if you will----
    Mrs. Hanabusa [continuing]. And I don't mean to interrupt 
you, but that is what I meant. I saw the Army reference in 
Korea, but drawing down from the total force structure that we 
have there. But I didn't see a mention of Army in all the other 
types of discussion.
    Mr. Berteau. There is a mention in the engagement in terms 
of what Army's relationship is with PACOM. And in fact, 
increasing the capacity of the U.S. Army-Pacific capability and 
stature, if you will, as part of that process. In addition, we 
saw some opportunities for the Army at the engagement end.
    And Mike, you may want to add a little bit on that.
    Dr. Green. Just to amplify the point about the Army 
aligning itself post-OEF/OIF [Operation Enduring Freedom/
Operation Iraqi Freedom] to the Pacific. There is enormous 
potential for enhancing the role of the Army if I Corps becomes 
a joint task force-capable command, and is training forces, 
mostly at the brigade level, but at all levels, with Pacific--
not just Korea, but Pacific missions in mind.
    And beefing them up with foreign affairs officers, 
enhancing joint training in the U.S., so that we are doing it 
with our partners and allies at the joint training center and 
so forth. And really kind of taking one of the three big corps 
in the Army and making it an Asia-Pacific Corps based in--the 
headquarters in Washington. Huge potential there.
    We were actually quite impressed, I have to say, with 
USARPAC [United States Army Pacific], with the U.S. Army-
Pacific, where there is a lot of quite sophisticated thinking 
and country expertise. And it is also worth remembering that 
most of the chiefs of defense in this region, even though it is 
a maritime theater, most of them are Army generals.
    So in the engagement phase-zero shaping and partnership-
building phase, a lot at the platoon, company, brigade level 
that the Army could do, we think that potentially with 
rotations of Army brigades to Korea, you could actually 
increase the capabilities that we are bringing. For example, 
the aviation brigade of the Second Infantry Division is short 
Apache helicopter squadrons. You could actually have more 
potential there.
    We didn't have time in this report to really go through 
whether that would work in terms of readiness. You know, when 
you take a brigade, move then to Korea for a year, there may be 
some issues, you know, there is a seam there, sort of a month 
when they come in, are they going to be ready to go if 
something happens. There are some issues that we just didn't 
have time to get into, but we thought it was really worth 
exploring.
    And then the last thing I would say about the force 
structure is because of air-sea battle, because of the more 
difficult operating environment in the Western Pacific within 
the first island chain, it is my own personal view--David can 
disagree if he wants--you know, the air-sea battle dialogue 
that the Army--the Air Force and the Navy have started is good.
    But really, we are going to need a jointness among the Army 
and Marine Corps as well, and we are going to need our allies 
and partners to similarly develop jointness among their 
Services, because it is going to be a much more intense 
environment. We are going to need more capacity, redundancy, 
distribution of opportunities.
    Mr. Forbes. And we thank you for those questions. The 
gentlelady's time has expired.
    The gentlelady from Missouri is recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    I just wanted to ask: What are the U.S. objectives in the 
Pacific? And how does the distributed laydown of Marine Corps 
forces in Australia, Guam, Hawaii and Japan accomplish these 
objectives and enhance our security posture in the Pacific?
    Dr. Green. For over 150 years, our objective has been to 
have access to the region and to make sure that the Pacific is 
an ocean that is a conduit for our commerce and our ideas, and 
not a conduit for threats to Guam, Hawaii, the western and 
continental United States and Alaska. That has been our 
strategy since the middle of the 19th century.
    The Marines have always been an important part of that. For 
the past 10 years, a large chunk of those marines have been 
operating in Southwest Asia. And as they come back to the 
region, they are going to return to the historic role they have 
played.
    The base in Okinawa is a legacy of history. And it is 
recognized in both governments as too much of a burden for the 
Okinawan people to take.
    Okinawa itself is geo-strategically prime real estate, 
right in the middle of the first island chain, geographically 
close to all the challenges we might face. But it is a heavy 
burden for the Okinawan people.
    And for a variety of reasons, dispersing the Marines to 
some extent would help us. I would take the burden off Okinawa, 
it would position them--for example in Australia--to be closer 
to areas where we need to help shore up the capacity of states 
and deal with different crises. It would give us redundancy in 
dispersal.
    So it brings a lot of advantages why we were comfortable 
endorsing the plan in principle.
    It also raises some real questions about whether we have 
sufficient lift and logistics when we spread out our forces a 
bit more, which we can get into if you like. Because it is 
going to mean we have to do some things differently and add 
some more resources.
    Mr. Berteau. If I could add one thing to that. Dr. Green 
has laid out the historical connection very well. But there is 
also kind of a unique opportunity going forward that goes 
beyond the historical value.
    A number of our potential partners and our current allies 
there would like to develop more expeditionary capability. And 
we think it is in our interest for them to do that because it 
helps bolster the security of the region across the board. And 
the Marines play a unique role in there.
    Congresswoman Hanabusa's question about the Army does 
warrant, if you will, a comment that in fact the Pacific is a 
more expeditionary environment. It does require a capability 
that most of the Army does not bring to bear. And that much of 
what we talked about for the Army is not a justification for 
additional Army force structure.
    But the Marines can play a role with our partners and 
allies, with the Koreans, with the Japanese, with the 
Australians, with a number of nations in the Southeast Asia 
area that goes beyond the historical value and actually looks 
at expeditionary capability for defensive purposes as well as 
offensive purposes. And we think that brings an enormous value 
at pretty low cost in terms of force structure and long-term 
investment.
    Mrs. Hartzler. I see in the report that on the Department 
of Defense's summary their comments from the Secretary 
regarding the report says, ``I disagree with the CSIS's 
suggestion that the Department should consider moving fewer 
than approximately 5,000 Marines to Guam.''
    Could you expound on your thoughts on that criticism?
    Mr. Berteau. I think that the Secretary has a plan that is 
still being developed. The baseline for that plan will be done 
perhaps the end of this year, perhaps early next year, in terms 
of how many marines move where. We don't prejudge the outcome 
of that plan. And we think that, in fact, there are some 
investments worth making in Guam, even if the ultimate outcome 
of that plan is a different number.
    I am not saying we are walking away from the number that 
has been agreed to and it was announced back in April. That 
number is probably still the right number to be planning for. 
But in the event that that number changes, we still think there 
are things that make sense to be done, and that is the basis of 
our comment there.
    Mrs. Hartzler. Do you think with the growing threats that 
are out there with the aggressive military from China and the 
threats from North Korea--how comfortable do you feel with this 
plan that it would still meet our security needs?
    Dr. Green. It has definite advantages for both scenarios 
that you mentioned, China and North Korea.
    In terms of China, I think that the real focus is on the 
peacetime shaping environment and engaging with other 
countries, particularly those that want similar expeditionary 
capability. The Marines can really play a role. A lot of that 
is in South and Southeast Asia, which is why the move to Darwin 
of approximately of 2,500 marines makes a lot of strategic 
sense.
    Operationally, I mean, we could settle so much in this 
session, but in the Korean Peninsula, given the possibilities 
of instability, uncertainty about how WMD [Weapons of Mass 
Destruction] might be used, there is a definite renewed 
advantage to having deep sea maneuver capabilities. In other 
words, to have options beyond just going up the middle, so to 
speak.
    For that to work, the Marines are going to have to have 
sufficient lift, which is why we focused on that. Because the 
operational advantages work only if you have the lift.
    Mrs. Hartzler. Thank you.
    Yield back.
    Mr. Forbes. Thank the gentlelady for her comments.
    The gentleman from Connecticut is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    I was looking at the pieces of this report and the rundown 
of all the countries regarding undersea warfare and--I mean, 
the only reference that I could see was in Australia, the 
discussion about trying to help with their Collins class 
program. I mean, that is about it, in terms of really any other 
navies in the area that--you know--I guess you would describe 
as allies.
    Is that an accurate representation?
    Dr. Green. I would say a couple things about that.
    We mentioned the Collins class, the Australian navy. The 
Royal Australian Navy is thinking through how they are going to 
develop a new class of attack subs [submarines]. They need 
longer range than most of the subs available from our European 
friends.
    There is enormous potential for collaboration on the 
development of these submarines with us with Japan, which makes 
outstanding world-class attack subs. We probably should have 
mentioned that in the report. We also mentioned in the 
recommendation, and my colleague highlighted this in his 
summary, that one of our real advantages in the Pacific is 
undersea warfare. We have--we are good at it. Our key maritime 
allies like Japan and Australia are good at it.
    And it is a reminder why for Beijing, you know, a coercive 
scenario or option really isn't very good. Because China 
depends on global sea lanes even more than we do for energy 
resources and so forth. And submarines and a capable undersea 
warfare capability are a reminder that we will, in a sense, own 
the oceans under any scenario.
    It is also an asymmetrical advantage as we look at the A2/
AD environment. So you will see in the recommendation, sir, 
that we recommended additional attack sub or subs. We weren't 
specific. That is, again, beyond what we could determine 
exactly in 3 months.
    Mr. Berteau. I would take that--I think there is a lot of 
integrated capability that we can bring with a couple of our 
key allies there. I think it is in our interest--in the U.S. 
interest to build on that capability.
    And, quite frankly, if I were going to try to defend one 
thing in the Defense Department budget it would be building two 
attack submarines a year for as far out as the eye can see.
    Mr. Courtney. Right. That won't come as any great surprise 
to the chairman----
    [Laughter.]
    Mr. Courtney [continuing]. There is no disagreement from 
this corner of the table here.
    Mr. Green, as long as I have got a couple more minutes and 
you are here, there are press reports this morning about a 
defense report that came out this morning in Japan, which 
raised some concern about sort of the command-and-control of 
the Chinese military.
    I mean, is that big news or is that really kind of pretty 
standard conventional wisdom out there? I mean, does it deserve 
sort of the breathless headlines that it received today? Or is 
that some kind of new discussion or new development?
    Dr. Green. The only thing new about it is the candor about 
a problem that I think everybody in the region and many within 
the Chinese system recognize.
    The Central Military Commission, which is chaired currently 
by Hu Jintao and vice chaired by Xi Jinping, his successor and 
the vice president, has exactly two civilians on it--and I just 
mentioned them. And below the Central Military Commission, 
there is no subcommittee on readiness. There is no committee 
with oversight over defense decisions. The Foreign Ministry has 
no idea--when I was on the National Security Council staff we 
often surprised our Foreign Ministry counterparts when we would 
raise issues involving the PLA. They had no idea.
    So civilian oversight is a challenge for all of us. And it 
is further complicated by the fact that in this maritime 
domain, especially out to the first island change and the 
contested waters in the East China Sea and South China Sea. It 
is not just the PLA navy. It is the fisheries police. It is the 
coast guard. There are five Services competing and whipping up 
support domestically for increased resources and more boats.
    Our engagement strategy has to involve two pieces. We have 
to, you know, convince our Chinese friends that if they keep 
pushing in this direction our partnerships will only grow 
stronger. And the rest of the region will be more unified in 
expressing concern and, in many cases, cooperating with us to 
protect those maritime areas.
    The other part is we have to find a strategy, and forward-
deployed forces are a part of this, where we are talking to the 
PLA. We are talking to the Chinese. In my own personal view, a 
military-to-military dialogue is not sufficient. Our national 
leaders have to have dialogue with China's national leaders and 
hold them accountable for the actions of the PLA to sort of 
help in our own diplomacy the Chinese start getting some grip 
over what their own forces are doing, particularly at sea.
    Mr. Courtney. Thank you, Mr. Chairman. Yield back.
    Mr. Forbes. Thank you, Mr. Courtney.
    Mr. Sablan is recognized for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And I want to thank you and Ranking Member Bordallo and the 
members for allowing me the courtesy of joining you this 
afternoon.
    Welcome, Dr. Green and Mr. Berteau.
    I am going to--the phrase ``jointness'' among Services, but 
I will wait for the second panel to appear. But I just have one 
question here that either one of you or both of you could 
address.
    The report makes the recommendation to, and I quote--``move 
forward with funding necessary for the development of training 
ranges at Tinian Island and other CNMI locations, work with the 
Government of Japan to leverage Japanese funding commitments in 
order to realize early joint bilateral training 
opportunities.''
    I know where Tinian is. They say ``other CNMI locations.'' 
I am assuming that this is islands north of Saipan. And I 
couldn't agree more with you with that recommendation.
    So can either one of you comment on the strategic value 
where there is in developing this training ranges? What 
capabilities does Tinian and other locations, other islands in 
the Northern Marianas offer our military that they don't 
currently have? And what value would these training ranges 
provide to our allies in the region?
    Mr. Berteau. Thank you. That is a good key set of 
questions, sir.
    One of the key strategic advantages, of course, is that 
these territories are in fact part of the United States, and so 
they offer us a stability, if you will, and a predictability 
over time not only allows us to invest in them, but then to 
realize the benefits of that investment over time.
    The second, of course, is they have the geostrategic 
location, if you will, so that they can serve as not only 
training capacity for United States forces, but for combined 
training of partners and allies in the region in a way that 
none of them can develop that capability for themselves.
    And it is to our advantage for them to take advantage of 
that capability, train with us, practice with us, exercise with 
us, both at the command post level and in terms of live fire 
training.
    And so the investment pays back not only for us in enhanced 
readiness and capability for U.S. military, but for our allies 
and partners as well. So it gives you both the stability and a 
capability that we think well warrants the investment.
    Mr. Sablan. You are talking about not just Tinian, then, 
you are talking about----
    Mr. Berteau [continuing]. Right, we are talking about 
Pagan, we are talking about Tinian, we are talking about other 
islands----
    Mr. Sablan [continuing]. And, you know, just from the chart 
that you have--table 8 actually--the only minor negative you 
have, but you also have a caveat next to it is affordability. 
And this is my--why I agree with your recommendation that we 
work with the Government of Japan in making those funds 
available.
    That is all I have for this panel. Thank you very much.
    Mr. Forbes. Thank you.
    Gentlemen, we want to thank you both. And Ms. Bordallo and 
some of the other members may have some written questions if 
you don't mind we would like to submit to you for your answers 
for the record. But we are going to move on to the next panel 
because we have got some votes coming up down the road.
    So thank you so much for your expertise and your 
willingness to share that with our subcommittee. We appreciate 
you being here today.
    Mr. Berteau. Thank you, Mr. Chairman. We will be happy to 
take any questions for the record and be glad to provide 
additional information as needed.
    Thank you very much.
    Mr. Forbes. Thank you both.
    And we are going to switch our panels out now and we will 
get started immediately with our next panel.
    Representing the Department of Defense and to provide their 
thoughts and comments to the PACOM report, I am pleased to have 
two distinguished individuals, Mr. Robert Scher, Deputy 
Assistant Secretary of Defense for Plans, and also Mr. David F. 
Helvey, Acting Deputy Assistant Secretary of Defense for East 
Asia.
    Gentlemen, thank you both, one for being here, but secondly 
your patience in having the first round and a little bit of 
delay with those first votes. But we certainly appreciate your 
comments and your willingness to share those with our 
subcommittee this afternoon.
    And I don't know which one wants to start, so we are going 
to let you guys decide. And whoever wants to start, we are 
looking forward to your comments.

   STATEMENT OF ROBERT SCHER, DEPUTY ASSISTANT SECRETARY OF 
         DEFENSE FOR PLANS, U.S. DEPARTMENT OF DEFENSE

    Mr. Scher. Terrific. Thank you, Chairman and members.
    I will start, and I want to first of all thank you, 
Chairman, Ranking Member Bordallo, and everyone on the 
subcommittee. We really appreciate the opportunity to appear 
before you today, and appreciate the chance to follow two good 
friends of mine, Dave Berteau and Mike Green, to be able to 
discuss the Center for Strategic and International Studies' 
independent assessment of U.S. defense posture in the Asia-
Pacific region.
    We have submitted a written statement for the record, but 
we will highlight some key points here.
    As you know, the U.S. strategy calls for rebalancing 
defense, diplomatic, and economic resources towards the Asia-
Pacific region. While this hearing focuses on expanding our 
military presence in the region, the Administration-wide 
initiatives include diplomatic and other efforts, to include 
strengthening of our bilateral alliances, deepening working 
relationships with emerging powers, engaging with multilateral 
institutions, expanding trade and investment, and advancing 
principles of democracy and human rights.
    Apart from force posture, another key aspect of our defense 
strategy is our effort to strengthen alliances and partnerships 
in the Asia-Pacific. Rebalancing to achieve these ends requires 
enhanced U.S., allied, and partner military capabilities 
throughout the region, the U.S. forward presence of forces, and 
a more resilient military infrastructure to support effective 
U.S. power projection operations in the face of current and 
future security threats.
    We are heartened that the CSIS assessment supports these 
tenets of the U.S. defense strategic guidance and draws 
conclusions consistent with the Department's own analysis about 
the challenges and opportunities likely to present themselves 
in Asia over the coming decade.
    Of note, the CSIS assessment also supports the Department's 
approach to enhancing U.S. defense posture as a key element of 
the overall policy, and highlights appropriately some of the 
challenges to implementing and sustaining the U.S. defense 
presence and posture in this critical region.
    The Department continues to pursue a defense posture in the 
Asia-Pacific region that is geographically distributed, 
operationally resilient and politically sustainable, as was 
noted.
    More broadly, we are investing in defense activities, 
presence, posture and capabilities necessary to reassure allies 
and partners in the region and shape the security environment, 
while also providing forward capabilities appropriate to deter 
and defeat aggression.
    In the coming years the Department will continue to build 
up Guam as a strategic hub in the Western Pacific, expand 
access to locations in Southeast Asia, Oceania and the Indian 
Ocean region, invest in capabilities appropriate for deterring 
and defeating aggression, and reassuring allies and partners, 
and expand our exercises, assistance efforts and other 
engagements with allied partner states in order to build trust, 
capability and interoperability.
    This includes necessary near-term investments to establish 
fully capable Marine Air-Ground Task Forces, or MAGTFs, in 
Japan, Guam, Australia and Hawaii, our plans to deploy up to 
four Littoral Combat Ships to Singapore, and our plans to 
increase the rotational deployment of U.S. Air Force units in 
northern Australia.
    In parallel with these posture enhancements, the Department 
is also making key capability investments that undergird our 
efforts to rebalance towards the Asia-Pacific region. Steps 
include the development of a new penetrating bomber and long-
range prompt conventional strike system, the sustainment of the 
Navy's carrier fleet and their associated air wings, and 
investments in a variety of resiliency initiatives.
    Pursuing these and other capabilities offers the best 
prospect for protecting U.S. interests, not only in the Asia-
Pacific region, but also elsewhere in the world.
    As the Department looks to rebalance towards the Asia-
Pacific region, it is mindful of pressing priorities in other 
regions and across the defense program which compete for scarce 
defense resources. The fiscal year 2013 President's budget 
request provides an initial set of investments towards 
fulfilling the defense strategic guidance's vision of enhanced 
defense capabilities and activities in the Asia-Pacific region, 
while addressing threats and opportunities in other key region.
    However, fully realizing these plans for future defense 
activities, presence and posture in the region will not happen 
in one budget cycle. Although the Department differs with 
CSIS's claim that there is a disconnect between DOD's strategy 
and resources, the Department agrees with the assessment's 
finding that continued appropriate budgeting will be essential 
to properly executing this strategy.
    In this vein, and as Secretary Panetta noted in his 
comments, sequestration would place at risk the bipartisan goal 
of sustaining this rebalance.
    I now pass the statement over to Mr. Dave Helvey, who will 
focus on how our presence is a part of our approach to 
strengthen our partnerships in the region.
    [The joint prepared statement of Mr. Scher and Mr. Helvey 
can be found in the Appendix on page 59.]
    Mr. Forbes. Thank you. Mr. Helvey, we look forward to your 
comments.

STATEMENT OF DAVID F. HELVEY, ACTING DEPUTY ASSISTANT SECRETARY 
      OF DEFENSE FOR EAST ASIA, U.S. DEPARTMENT OF DEFENSE

    Mr. Helvey. Thank you, Mr. Chairman, Congresswoman Bordallo 
and distinguished members of the subcommittee. To pick up where 
my colleague left off in our discussion of the CSIS report, I 
would like to focus my remarks this afternoon on what we are 
doing in the Asia-Pacific region today, both in terms of 
strengthening our alliances, as well as our partnerships.
    The CSIS report comes against the backdrop of an 
increasingly dynamic Asia-Pacific security environment. 
President Obama has stated that as a Pacific nation, the United 
States will play a larger and long-term role in the Asia-
Pacific over the decades to come, and this effort will draw on 
the strengths of the entire U.S. Government.
    In his speech before the International Institute for 
Strategic Studies Shangri-La Dialogue in Singapore this past 
June, Secretary Panetta outlined how we in the Department of 
Defense are approaching a rebalanced Asia by presenting four 
key principles.
    One, promoting international rules in order to advance 
peace and security in the region.
    Two, deepening of bilateral and multilateral partnerships.
    Three, enhancing and adapting U.S. military's enduring 
presence in the region.
    And four, investing in the capabilities needed to project 
power and to operate in the Asia-Pacific.
    Looking across this vast region today we see that it is 
home to some of the world's largest and fastest-growing 
economies, the world's largest populations and the world's 
largest militaries. The Asia-Pacific region provides 
unprecedented opportunity for trade and investment, as well as 
access to cutting-edge technology.
    It also contains several and varied challenges, whether 
through maintaining freedom of navigation in the South China 
Sea; countering the proliferation efforts of North Korea and 
maintaining robust deterrence against North Korean aggression 
or provocation; ensuring transparency in the military 
activities of key regional players, such as China; or 
addressing traditional and nontraditional security challenges, 
such as counterterrorism, counter-piracy and disaster relief.
    A central, indeed essential part of the strategy are our 
efforts to strengthen alliances and partnerships in the Asia-
Pacific region to advance a common vision for the future. In 
this context, the CSIS report includes an important discussion 
of the Department of Defense plans for the realignment of U.S. 
Marine Corps forces.
    The realignment plan sustains a U.S. Marine force presence 
in the Asia-Pacific region, establishes multiple fully capable 
Marine Air-Ground Task Forces, and importantly increases our 
ability over time to train and exercise with allies and 
partners throughout the region.
    The realignment of U.S. Marine Corps forces enhances the 
political sustainability of our presence in Japan by enabling 
the early movement of some of those forces to Guam independent 
of progress on the Futenma replacement facility, while 
relocating others to the less populated northern part of 
Okinawa.
    This approach maintains our forward capabilities, reduces 
our footprint in Okinawa, and in combination with other 
measures should reduce the political pressures associated with 
our presence there, all while sustaining robust Government of 
Japan financial support for the Marine Corps move to Guam.
    By providing for the possibility of shared ranges in Guam 
and the Commonwealth of the Northern Mariana Islands, this 
agreement supports deeper operational cooperation with the 
Japan Self-Defense Forces and our larger bilateral review of 
roles, missions and capabilities.
    In this context, the Department of Defense continues to 
work closely with the Government of Japan to implement the 
provisions of the April 27th, 2012, two-plus-two joint 
statement. In order to demonstrate to the region that we have a 
credible plan, congressional support is essential. And the 
Department is incredibly appreciative of the committee and this 
subcommittee's continued cooperation and counsel as we move 
forward on the realignment.
    The Department agrees with the CSIS assessment there are 
opportunities to move forward with Guam and to send an 
important signal to the region. For much the same reason, the 
Department believes that to rotate fewer marines to Guam, as 
suggested by the CSIS assessment, would bring into question the 
stability of our basing arrangements with Japan and would run 
counter to our plan to establish multiple fully capable MAGTFs 
in multiple locations within the Asia-Pacific region.
    Turning to the Republic of Korea, the U.S.-Republic of 
Korea alliance continues to be a cornerstone of U.S. defense 
partnerships and posture in Northeast Asia.
    In accordance with the 2009 joint vision statement, we are 
realigning our forces on the Korean peninsula to prepare for 
transition of wartime operational control to the ROK [Republic 
of Korea] in December, 2015. This transition will allow for the 
ROK to take the lead role in the combined defense of Korea, 
supported by an enduring and capable U.S. military force 
presence on the Korean peninsula, in the region, and beyond.
    Central to this effort is the need to evolve U.S. and 
Republic of Korea capabilities to provide for a stabilizing 
presence on the peninsula and in the region, including 
rotational deployments of U.S. Army units to the Republic of 
Korea in support of a range of peacetime and contingency 
response activities.
    The Department is working in partnership with Republic of 
Korea to implement the bilateral strategic alliance 2015 plan, 
including the caveats proposed by CSIS, which are already part 
of a series of planning milestones toward which the Department 
is working to ensure OPCON transition occurs as planned with no 
loss of readiness to our combined forces.
    Other significant posture changes are under way in 
Southeast Asia, in addition to the rotational deployments of 
the Marine Corps and U.S. Air Force aircraft units to 
Australia, which Mr. Scher has already highlighted. These 
initiatives will strengthen one of our most important alliances 
by providing opportunities for high-end combined training in 
Australia and through working together to build up partnerships 
in Oceania and Southeast Asia to build regional capacity to 
address common security challenges.
    Littoral Combat Ship deployment to Singapore will 
strengthen U.S. engagement in the region through port calls and 
engagement in regional navies through activities such as 
exercises and exchanges. It will also support the Department's 
effort to counter transnational challenges and build partner 
capacity for maritime security, among other missions.
    The Department continues to explore opportunities with our 
treaty ally in the Philippines to deploy forces rotationally to 
priority areas in order to enhance their maritime security.
    Supporting these planned and potential posture changes are 
enhancements to U.S. training ranges in the region. Investments 
in training ranges in Guam, the Commonwealth of the Northern 
Mariana Islands and other locations will enhance U.S. joint 
training opportunities, as well as combined training 
opportunities with our allies and partners.
    In conclusion, the Department of Defense is devoting 
substantial effort to the United States Pacific Command area of 
responsibility, consistent with the U.S. strategic priority to 
rebalance to the Asia-Pacific region and to build a defense 
posture that is geographically distributed, operationally 
resilient, and politically sustainable.
    The Department appreciates the efforts of the CSIS in 
conducting the independent assessment and looks forward to 
continuing a dialogue with Congress on this key national 
security issue.
    And with that, Mr. Chairman, we look forward to taking your 
questions.
    [The joint prepared statement of Mr. Helvey and Mr. Scher 
can be found in the Appendix on page 59.]
    Mr. Forbes. I want to once again thank you both for being 
here and for your service to our country.
    My first question is for either or both of you, however you 
feel appropriate to answer, but the distributed laydown 
proposed in the April 27, 2012, U.S.-Japan Security 
Consultative Committee agreement carries significant cost to 
support. It appears that these costs are not adequately 
reflected in the budget plan for fiscal year 2013.
    Can you tell me what the current timeline and cost estimate 
to support the Marine Corps distributed laydown is? And is the 
Administration committed to the distributed laydown if the 
Department has not supported even a modest investment in the 
fiscal year 2013 budget plan?
    Mr. Helvey. Mr. Chairman, we do not have a timeline for 
executing the full distributed laydown. One of the advantages 
of the plan is that each piece, though, is discrete and can be 
pursued independent of the others. For now, we are focused on 
beginning with the move to Guam and we are eager to get 
started. Although the most significant construction cannot 
begin until the supplemental environmental impact statement is 
complete, there are a number of projects that we can execute in 
the meantime and we would seek congressional support in moving 
forward with these.
    If the congressional restrictions are lifted, we can 
initiate a few projects which are already appropriated with 
funds or with the Government of Japan funds, at Andersen Air 
Force Base, Apra Harbor, and the non-livefire training 
location. As I understand it, these previously determined 
locations will not be reviewed under the supplemental 
environmental impact statement.
    Mr. Scher. And I would just add, Mr. Chairman, that I think 
there are--we believe that we have for the overall rebalancing 
already started to see some things that we have reflected in 
the fiscal year 2013 budget, especially in terms of 
technologies and approaches that we have saved and have made 
sure remained.
    We, in the fiscal year 2014 budget, will look to continue 
to holistically move towards the rebalancing. It may not be 
seen in all the MILCON requests because many of those, as Mr. 
Helvey said, must wait for some of the environmental impact 
statements. But we would appreciate the opportunity to move 
forward on some of the things that we do know that we can do, 
and believe very strongly that this will tangibly demonstrate 
to the region that the rebalance is something that we are 
committed to. And that it will be more than just technology and 
more than just rhetoric, but that we can see posture movements 
throughout the region.
    I also believe that in other funding authorities you will 
see that we are continuing to move forward on the Australia 
part of moving MAGTFs and looking at how we can make sure that 
the Marines are more capable of operating in and around 
Australia as part of that piece of the laydown.
    Mr. Forbes. Do either or both of you think it is 
unreasonable for this subcommittee to expect or request a 
timeline on what we are expected to do?
    Mr. Scher. Certainly, it is not unreasonable. And I think 
we can provide you with a generalized timeframe, recognizing, 
sir, that there are going to be many things that we simply will 
not be able to predict in terms of timing for various reasons, 
either they being bilateral negotiations or they being 
environmental impact statements that we don't have the end to. 
But certainly, we could put together a generalized timeline and 
approach to what we need, as well as what we could start to do 
right now.
    Mr. Forbes. I think that would be helpful for our committee 
members if you would strive to see if you could put that 
together.
    Also, while the overall costs have been reduced, the Marine 
Corps distributed laydown plan represents a significant 
investment in the region. Could you describe for me the current 
state of host nation discussions with regard to offsetting 
overall costs in Guam and Australia? And also, how would our 
allies and partners perceive not proceeding with the plans as 
outlined in the April, 2012 security agreement?
    Mr. Scher. In terms of the discussions on Australia, as you 
know, the President and the Prime Minister announced moving 
towards the establishment of a MAGTF in Darwin in November of 
last year. And we are now engaged in discussions with the 
Australians about what that would look like, what kinds of 
facilities would we be using within Australia.
    To be clear, we are not looking to establish a U.S. base in 
Australia or anywhere outside of U.S. territory. We are looking 
to share facilities and use facilities as we have, frankly, in 
Australia for a number of years under the overall approach of 
shared knowledge and concurrence between both of our 
governments.
    So that is how we are approaching these discussions. But as 
yet, we do not know the full extent of the infrastructure 
needed or required for our presence and what Australia has to 
offer, and what we are looking to do. So it is premature, 
unfortunately, to be able to talk about cost sharing as we 
honestly do not have a measure of the costs.
    We are very close to that and we expect that we will see 
progress between now and the meeting of our ministers and 
secretaries at the AUSMIN [Australia-United States Ministerial 
Consultations] consultative talks in November. We will have a 
better idea then. So we are making progress in terms of 
identifying costs, but not yet obviously having any cost-
sharing piece of that for Australia.
    Mr. Helvey. Well, Mr. Chairman, with respect to Japan, you 
have correctly pointed out the April 27, 2012, U.S.-Japan 
Security Consultative Committee agreement did identify that the 
Government of Japan would provide a direct contribution of $3.1 
billion to support the Guam realignment. And in addition to 
that, we are also talking to the Japanese, of course, about the 
types of projects that we would have to do on Okinawa as part 
of the sustaining the current Futenma location. And those 
conversations are ongoing.
    We have also got a series of conversations with the 
Government of Japan with respect to training ranges, both on 
Guam and in the Commonwealth of the Northern Mariana Islands.
    Mr. Forbes. Could you also just address how you think our 
allies and partners would perceive not proceeding with the 
plans as outlined in the April 2012 security agreement?
    Mr. Helvey. Well, sir, I am hesitant to speak on behalf of 
our allies and partners, but I think from our perspective, it 
would call into question the credibility of the U.S. commitment 
to do our part. As the previous panel had highlighted, there is 
some political risk on the part of Japan in making some of the 
investments that they have had in entering into this agreement. 
And so I think there is an expectation that we would live up to 
our part of the bargain.
    Mr. Scher. I would just add I think broadly from the 
regional perspective, the region understands and appreciates 
and believes that we are committed to the rebalancing towards 
Asia across all of the spheres, both diplomatic, economic and 
defense.
    Not following through on the commitments that we have made 
and on the promises that we have made to our various friends 
and allies, I think would indicate to them that we were not 
serious about this rebalancing; that we were not ready to 
tangibly back up those assertions; and I think it would have a 
negative effect overall on how we are perceived by our friends 
and allies. And I think it would also be troubling for anybody 
who would be a potential adversary.
    Mr. Forbes. The gentlelady from Guam is recognized for any 
questions she may have.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    And I really want to thank you very much for holding this 
hearing. A lot of questions in this move, and some of them--we 
are getting to the bottom of them this afternoon.
    I want to thank you, Secretary Scher and Secretary Helvey, 
for being with us.
    This is important to me, and I want to hear from both of 
you. The report highlights an apparent disconnect between OSD 
[Office of the Secretary of Defense] and PACOM with regards to 
planning and strategic direction. What is being done to better 
synchronize these elements with DOD?
    From time to time, I have remained concerned that the 
Department is not speaking with one voice or executing major 
programs in the Pacific with a coordinated focus. Now, this is 
very important to me.
    And Mr. Chairman, I know you have heard me speak about 
this. We have been working on this military move to Guam and 
now to other areas for nearly 10 years--10 long years. And why 
is there so much discord? We are moving to U.S. territories. We 
are trying to enhance the bases there. We are moving into 
something that belongs to us.
    And now, of course, we are moving into CNMI with training 
areas. We are moving to Hawaii with some of the marines, and of 
course, to our ally Australia. I just can't understand why we--
and I know that Congress--one of the houses here in Congress is 
part of the blame. They simply just want to keep wanting more 
reports and more reports. But this has been 10 long years that 
I have been at it, and I just want to know if you could answer, 
how can this problem be mitigated with our renewed focus on the 
Asia-Pacific area, the discord between OSD and PACOM?
    Mr. Scher. Congresswoman Bordallo, I actually believe 
that--I did not--as I think noted in my statement, we don't see 
the same level of disagreement between the Pacific Command and 
the Department of Defense in Washington.
    I think certainly we are still working through many of 
these issues in terms of implementing. The defense strategic 
guidance came out in the beginning of this year. That was then 
translated into various guidance documents that guide the 
Department of Defense. It is, as you know, a very large 
organization and I think it takes time to make sure that these 
are all put forward throughout all the Components and agencies 
of the Department of Defense.
    That is certainly our job, to make sure that that gets 
done. And I believe that it is getting done and that we will 
see the fruits of that as we look to the fiscal year 2014 
budget submissions that come in, as well as the theater 
campaign plans that come in from the combatant commanders that 
talk about how they are planning on implementing the process.
    So I believe that there is a better connection that the 
CSIS assessment talked about, but certainly there is always the 
opportunity to communicate better within the Department of 
Defense and ensure that we will. And I certainly ensure that we 
will continue to do that in terms of providing guidance.
    I don't know, the actual issues about how we are where we 
are with some of the moves in particular I think is a many and 
circuitous route we have gotten here. But certainly the 
Department of Defense now, I feel very confident, and all of 
the Services and Components are committed to this plan, making 
sure this plan works and is very workable.
    We have commitments from all of the Service Components that 
this is the plan that they approve from the Pacific commander. 
And I think that within the Administration, there is no doubt 
that this is the appropriate approach, and that we should begin 
implementing as soon as possible, assuming that we are given 
the appropriate funds to do so.
    Ms. Bordallo. I want to add, too, that I join the chairman 
in requesting a time line. We just haven't had anything. So I 
do join him in requesting that you send that.
    Secretary Helvey.
    Mr. Helvey. Well, Congresswoman Bordallo, I--like Bob, I--
pardon me, Mr. Scher--I don't think that we see the same 
disconnects between OSD and PACOM that is referenced in the 
CSIS report, quite the contrary. We have a very good 
relationship with our colleagues and counterparts in the United 
States Pacific Command. And we are committed to continuing to 
work very closely with PACOM and with Admiral Locklear as we 
move forward.
    We rely very heavily on the advice, recommendations and 
counsel that we receive from U.S. PACOM across a variety of 
issues, whether it is thinking about the security situation in 
the Asia-Pacific, working very closely with PACOM on engagement 
plans, whether it is with China or with other countries in the 
region. I mean, this is something that is very tightly 
integrated with U.S. PACOM, Joint Staff and with OSD.
    And with respect to this plan, the rebalance toward the 
Asia-Pacific and, in particular, the distributed laydown for 
U.S. Marine Corps forces in the Asia-Pacific, we will continue 
working with PACOM as we move forward and implement this plan. 
This is something that everybody is behind, and we are looking 
forward to move forward.
    Ms. Bordallo. Thank you.
    And I do want to--I realize, Mr. Chairman, that this is a 
project that it is not an ordinary project. We are working with 
a foreign country, the country of Japan. They have been very 
good partners. And they have come across with their 
commitments. And I do feel that, you know, we have to work 
together, but I don't think it should have taken this long. I 
do realize that there have been problems. We have the budget 
problems now. Japan has had their tsunamis and their nuclear 
fallout and other situations have come about. But I just wish I 
could see a little more action in this area.
    Now, the next question I have, the report discusses some 
additional capabilities that could enhance the United States 
military posture in the Asia-Pacific region, like hosting 
additional attack submarines or permanently stationing bombers 
on Guam.
    Are there additional possibilities as well? And how could 
such recommendations be coordinated with DOD?
    Mr. Scher. I think they see it, as described by Mr. Berteau 
and Dr. Green, the CSIS assessment, consciously looked out 
both--first of all, from only an Asia-Pacific perspective; and 
secondly, to look at an option that has more than--with an 
unconstrained budget environment, if you will, understanding 
that budgetary issues are a part of it.
    Certainly, that is something that we are going to--that we 
can consider. People have talked about that. And certainly now 
that the CSIS assessment talks about that, we will take another 
look.
    Part of the issue, however, of course, is that the 
Department must look at this from a global perspective and 
ensure that we have the capabilities to address our interests, 
support our friends and allies, and deter threats throughout 
the region. So we will have to look at this from a broader 
perspective in terms of resources and where they can be 
committed.
    But certainly, I think everyone understands that there 
continues to be great value in Guam as a strategic hub. And we 
will always be open to looking at ways that we can enhance our 
posture in the Pacific along the lines of ensuring as well that 
we can deal with the interests that we have globally.
    Ms. Bordallo. Do you want to make any further comments?
    Mr. Helvey. No, madam. Thank you.
    Ms. Bordallo. And then I have one further question, Mr. 
Chairman.
    What impact, in your estimation, would occur to our 
bilateral relationship with Japan, as well as other allies in 
the Asia-Pacific region, if the Congress does not approve 
MILCON directly associated with the realignment of the Marines 
or reduce the restrictions on spending Government of Japan 
contributions?
    And further, what can we expect the Congress to formally 
receive a schedule--or when can we, as I mentioned earlier, 
receive a schedule and a list of projects required to support 
the buildup? And when could we expect to see these projects 
reflected in the future years' defense program?
    Secretary Scher.
    Mr. Helvey. I think with respect to the first question, 
madam, I think if we fail to do our part, I think it would call 
into question in Japan's mind whether or not they ought to be 
able to move forward. So I think the real risk here is that if 
we don't take further steps, then it will be hard for us to 
expect that the Government of Japan will do its part.
    This also has broader implications and ramifications across 
the region as other countries beyond Japan look at the United 
States, and look at not only the strength of our alliance with 
Japan, but the credibility of our obligations and commitments 
with them as well. And as Mr. Scher noted as well, potential 
adversaries will also take note if we have challenges in living 
up to these obligations, and that can have deeper implications 
for our long-term security interests in the region.
    Ms. Bordallo. Thank you.
    Mr. Scher. And we will endeavor to get you the outlines of 
a timeline as soon as possible. I simply don't want to promise 
you a date because I don't want to get that wrong. And I would 
rather be incomplete than incorrect. So we will try to get that 
as soon as possible, recognizing that different levels of 
detail will be difficult to get, as I have said, due to 
environmental impact statements and ongoing negotiations with 
other countries. But certainly, that is something that we can 
get you.
    [The information referred to can be found in the Appendix 
on page 185.]
    Mr. Scher. I think that there is money that we already have 
asked for that we could put to use right now, as noted by our 
statements and by the CSIS--by the witnesses as well. And we 
will continue to look and fund wedges within the budget as we 
see that there is an opportunity to do more. But obviously, we 
need to make sure that we do this in conjunction with both 
houses of Congress.
    Ms. Bordallo. I thank you, and I yield back, Mr. Chair.
    Mr. Forbes. I thank the gentlelady.
    And if the gentlelady from Hawaii would just allow me one 
follow-up question from my good friend from Guam. The 
gentlelady from Guam asked about the disconnect between the 
Department and PACOM. Obviously, it is always difficult when 
you are the person that someone is alleging has a disconnect, 
for you to see that. An objective party sometimes can see it 
better.
    Why do you feel that they would make that conclusion if you 
do not see it? What do you think objectively they were looking 
at which would lead them to conclude that there was such a 
disconnect?
    Mr. Scher. Certainly, Mr. Chairman, that is a great 
question for them to answer.
    Mr. Forbes. Unfortunately, they have left the building.
    Mr. Scher. Yes, and to be honest, I want to talk to both 
Mike and Dave to figure out exactly how they got there. I don't 
want to hazard a guess, but I certainly do know that as new 
strategic approaches, new policies are developed, that is only 
the first stage. And making sure that it is promulgated and 
then understood appropriately takes a little while, especially 
in an organization as large as the Department of Defense.
    And I think we are at the point where I feel very confident 
that we have appropriately articulated it; that we have 
promulgated it well. But clearly, there is still a discussion 
to be had. So in fact, sir, I did go out to Pacific Command 
just last week. And part of my purpose in going out there was 
to make sure that we had no gaps between the guidance that has 
been given from the Secretary and from his staff to Pacific 
Command. And I feel very confident after having extensive 
discussions with Admiral Locklear and others on his staff that 
there is not a gap.
    Mr. Forbes. Well, we don't want to belabor it, but I think 
the ranking member and I would both feel comfortable if you 
would have that little chat with them and perhaps respond to us 
on the record what do you think those objective criteria are, 
so we can just make sure that is not taking place and we have 
done whatever we can to iron that out. And we appreciate you 
looking at that and getting back to us. And we will ask them to 
do the same thing.
    [The information referred to can be found in the Appendix 
on page 185.]
    Mr. Forbes. The gentlelady from Hawaii is recognized for 5 
minutes.
    Mrs. Hanabusa. Thank you, Mr. Chair.
    Mr. Helvey, during your responses to Ms. Bordallo, you kept 
saying, ``If we don't do our part, Japan will not do their 
part.'' Can you give me an example of what you meant by ``do 
our part'' and ``they will not do their part''? What are you 
talking about?
    Mr. Helvey. I think we are talking about, you know, moving 
forward with the realignment plan. You know----
    Mrs. Hanabusa. Futenma Replacement Facility and so forth--
is that what you are talking about?
    Mr. Helvey. Yes, madam. And we have made some, I think, 
really good progress in the April two-plus-two statement in 
providing a delinkage between forward progress on moving 
towards the Futenma Replacement Facility and the realignment of 
Marines----
    Mrs. Hanabusa. That was my next question. When you say--
well, it was said after that meeting that they delinked. So 
what does that give you, in your mind, or either of you, on our 
part? When that delinkage took place, what does it permit us to 
now do that we couldn't do before?
    Mr. Helvey. Well, what that allows us to do is to be able 
to make progress, on both issues--the moving to a new Futenma 
Replacement Facility and moving to Guam have strategic value 
independent of each other. And so what the delinkage allows us 
to do is to be able to make progress where we can make 
progress.
    So we can begin the movement of forces, for example, from 
Okinawa to Guam, while at the same time we are continuing to 
work with the Government of Japan to make sure that all the 
right things happen on Okinawa so we can move forward with the 
beginning of the construction and move to the replacement 
facility in Henoko Bay.
    Mrs. Hanabusa. We have been calling it Camp Schwab, so is 
that correct?
    Mr. Helvey. Yes, madam----
    Mrs. Hanabusa. But is the Camp Schwab portion of it linked 
to Futenma? In other words, we have delinked part of it, but is 
the delinkage between us making the move to Guam, or is it also 
that we can proceed to do whatever we need to do, like another 
runway or whatever it may be, to Camp Schwab as well?
    Mr. Helvey. Yes, we can--there are things that have to 
happen on Okinawa first. There has to be--they have to, I 
think, finish some work on their environmental impact 
statement. There has to be a landfill permit. But once that 
happens, then presumably construction can begin for that 
replacement facility.
    Mrs. Hanabusa. The other discussion that we have been 
having is on training ranges. And this, sort of, ties to my 
prior question about the view of the new military. And of 
course, that then will also determine what we need in terms of 
training facilities, area mass, what is it.
    So when we talk about training ranges, whether it is Mr. 
Sablan's area or wherever you may else go, what exactly are the 
requirements that you see that we need in terms of training? 
And are we talking about training expeditionary forces 
primarily?
    Mr. Scher. I think, in terms of specific needs of units and 
requirements, that is really a question that we can certainly 
take for the military services. Title 10 is their 
responsibility for manning, equipping and training.
    From a broad perspective, what is very clear is that, when 
you deploy forces and distribute around an area, one of the 
things you want to try to make sure to do, as a general rule, 
is to have them near training facilities. If not, then they 
have to go elsewhere to train before they can be ready forces 
to deploy and back.
    So we want to make sure that, as we look at the operational 
deployment of forces, in this case the Marines particularly, 
that they have training available near and around them. And 
that is one of the key pieces that should not and cannot be 
forgotten in the distributed laydown, to ensure that we have 
operationally ready forces in these geographically distributed 
areas.
    Mrs. Hanabusa. So it would be whatever the Marines need in 
terms of the training, if they were to move to--when they move 
to Guam? Is that what you are talking about?
    Mr. Scher. Yes, and the joint force requirement. We try to 
look at all of these in terms of the joint force requirement, 
and looking at many of the training ranges will be valuable not 
only for one Service.
    Mrs. Hanabusa. You were here when I had my discussion with 
the CSIS gentleman about Secretary Panetta's positions 
regarding what this new military is going to have to do. And I 
don't think that is something, in the time that I have 
remaining, that you are going to be able to answer, so I would 
like to ask, Mr. Chairman, if they could take that for the 
record.
    How do you intend to accomplish all that Secretary Panetta 
said we would have to do?
    And that means political sustainability and the 
geographically distributed, as well as, I think, what is the 
middle one?
    Mr. Scher. Operationally----
    Mrs. Hanabusa. Operationally resilient. That is the one I 
am really interested in. How do you do operational resilience?
    Thank you very much, Mr. Chair. I yield back.
    Mr. Forbes. I thank the gentlelady.
    And I think both you gentlemen heard the gentlelady's 
question. If you could just acknowledge that you understand the 
question and that you will respond back to her so we have that 
on the record?
    Mr. Scher. We will take for the record the question about 
how do we accomplish our geographically distributed, 
operationally resilient, and political sustainable force 
posture in the Pacific.
    [The information referred to can be found in the Appendix 
on page 185.]
    Mr. Forbes. Good. Thank you so much.
    I thank the gentlelady.
    Mr. Sablan is recognized for 5 minutes.
    Mr. Sablan. I thank you very much, Mr. Chairman.
    And Secretary Scher and Secretary Helvey, thank you very 
much for your service.
    Let me just associate myself and get to my real question. 
For my observation--and Ms. Bordallo brought this up and then 
Chairman Forbes brought this up. And I think it was Dr. Green 
who said that lack of jointness of service among Services--it 
was also in the CSIS report--that indicated there seemed to be 
a disconnect.
    And for me, my observation is--and maybe, if it helps, is 
that--at the moment, there are currently several EIS--
environmental impact studies--going on in the region in just 
where, you know, you have these divert EIS going on and, you 
know, a supplemental EIS for Guam, and the Pacific Com EIS for 
the Pacific AOR [Area Of Responsibility], among others. I will 
take your word that there is somewhere within our Government or 
in the Department of Defense that will coordinate all of this. 
I am actually--because I had mentioned to you the divert EIS--
we still recommend that you have the divert--but let me say 
this. Secretary Panetta agrees with the CSIS report's 
assessment that the training ranges in the region are of 
significant military readiness and potential military 
operations in the PACOM area of responsibility. One 
recommendation is to have training areas and facilities on the 
island of Pagan in the Northern Mariana Islands.
    So can you tell us your plans, or the Department's plans 
for Pagan, including the plans on the necessary funding 
required to develop Pagan into a suitable training area?
    Are there any potential barriers to the use of Pagan, for 
example? Have you had consultations with the Northern Marianas 
Government officials?
    And what exactly are your plans for Pagan?
    Mr. Scher. I know that we have done some initial work on 
this, but I admit to not knowing the full range of where we are 
in these discussions or in the considerations within the 
Department. So I will take for the record the question of 
giving you an update on all of the activities in regard to the 
training in CNMI.
    [The information referred to can be found in the Appendix 
on page 185.]
    Mr. Sablan. Then, Mr. Chairman, that answers all my 
questions.
    You will get back to us? I am not a member of the 
committee, so hopefully, you will get back to us.
    And, Mr. Chairman, again, I am very grateful to you and Ms. 
Bordallo and the members of the committee for the courtesy, 
sir, for allowing me to join you this afternoon. Thank you very 
much.
    Mr. Forbes. We thank you for being here. We thank you for 
your questions. And you have sat today and asked that question. 
It will be responded to and we will get you the answers when it 
comes back.
    Gentlemen, as you heard from our earlier panel, we may have 
some members of the subcommittee who have some written 
questions for you. If you would be courteous enough to look at 
those and get us your responses back for the record for doing 
that. But without that, or other than that, we want to thank 
you again for being here, for your time. And with that, the 
hearing is adjourned.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             August 1, 2012

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             August 1, 2012

=======================================================================


                   Statement of Hon. J. Randy Forbes

               Chairman, House Subcommittee on Readiness

                               Hearing on

            United States Force Posture in the United States

                 Pacific Command Area of Responsibility

                             August 1, 2012

    I want to welcome all our members and our distinguished 
panel of experts to today's hearing that will focus on the 
Pacific Command and an independent assessment of the U.S. 
defense posture in the region.
    I have had the opportunity to review the Center for 
Strategic and International Studies report and was very 
impressed with the thoroughness of the assessment and the depth 
of study associated with the recommendations. The ability to 
pull together such a comprehensive document in the short time 
provided is indicative of the expertise provided to this report 
and the value the think tank community can play in the 
policymaking process. My compliments to both of our witnesses.
    To quote the report, ``Today, six of the ten fastest 
growing major export markets for the United States are in Asia, 
and 60 percent of U.S. goods exported abroad go to the region. 
Meanwhile, the region is home to five of the eight states 
recognized as being in possession of nuclear weapons, three of 
the world's top six defense budgets, six of the world's largest 
militaries, continuing tensions between India and Pakistan, and 
territorial disputes stretching from the Northern Territories 
of Japan through the East and South China Seas and into South 
Asia.'' It is for these reasons and many more that a rebalance 
to the Pacific theater is in our strategic interests.
    Our subcommittee has long supported this strategic 
rebalance and I believe that a forward-based, credible presence 
is essential to supporting our economic interests.
    In previous discussions on the Marine Corps realignment 
from Okinawa, I had expressed my concern on the overall costs 
associated with the realignment of forces. However, earlier 
this year, the Department of Defense offered an alternative 
force structure proposal that includes a reduction of forces in 
Okinawa and realigns the Marine Corps into Marine Air-Ground 
Task Force elements on Okinawa, Guam, Australia, and Hawaii. I 
am pleased to note that the overall costs appear to have been 
significantly reduced while security posture may be further 
enhanced.
    Rarely in Washington do we encounter a proposal that both 
saves money and expands capabilities, but I think that we have 
encountered such a proposal in the latest agreement between the 
United States and the Government of Japan. I am glad that our 
witnesses today appear to have reached the same conclusion.
    I believe in maintaining peace through strength. I believe 
that a strong economy requires a strong military to protect the 
free flow of goods around the world. I believe that the Asia-
Pacific theater provides a valuable key to the continued 
prosperity of the United States and is in our strategic 
interests to ensure peace in the
region.
    I must admit, I do wonder whether such a Pacific rebalance 
as we are discussing today will be hollowed by the debate 
associated with sequestration and the decisions associated with 
the Budget Control Act. I think that we internalize the impacts 
of sequestration to the force structure of the United States, 
but I am equally worried as to the message that could be 
provided to our partners and allies. I look forward to also 
discussing how a withdrawal of forces from overseas, that could 
follow a sequestration decision and the additional reductions 
already included in the Budget Control Act, could be perceived 
by our partners and allies.
    As to our hearing today, we intend to have two panels of 
witnesses. The first panel will be the principal authors of the 
report entitled ``U.S. Force Posture Strategy in the Asia 
Pacific Region: An Independent Assessment.'' The second panel 
will be representative of the Department of Defense.
    Joining us on the first panel are two distinguished 
witnesses and authors of this independent report, from the 
Center for Strategic and International Studies:

        <bullet> LMr. David J. Berteau, Senior Vice President 
        and Director of International Security Program; and

        <bullet> LDr. Michael J. Green, Senior Advisor and 
        Japan Chair.

    Representing the Department of Defense and to provide their 
thoughts and comments to the PACOM report, I am pleased to have 
two distinguished individuals:

        <bullet> LMr. Robert Scher, Deputy Assistant Secretary 
        of Defense for Plans; and

        <bullet> LMr. David F. Helvey, Acting Deputy Assistant 
        Secretary of Defense for East Asia.

    Gentlemen, thank you all for being here. 
    [GRAPHIC] [TIFF OMITTED] T5671.001
    
    [GRAPHIC] [TIFF OMITTED] T5671.002
    
    [GRAPHIC] [TIFF OMITTED] T5671.003
    
    [GRAPHIC] [TIFF OMITTED] T5671.004
    
    [GRAPHIC] [TIFF OMITTED] T5671.005
    
    [GRAPHIC] [TIFF OMITTED] T5671.006
    
    [GRAPHIC] [TIFF OMITTED] T5671.007
    
    [GRAPHIC] [TIFF OMITTED] T5671.008
    
    [GRAPHIC] [TIFF OMITTED] T5671.009
    
    [GRAPHIC] [TIFF OMITTED] T5671.010
    
    [GRAPHIC] [TIFF OMITTED] T5671.011
    
    [GRAPHIC] [TIFF OMITTED] T5671.012
    
    [GRAPHIC] [TIFF OMITTED] T5671.013
    
    [GRAPHIC] [TIFF OMITTED] T5671.014
    
    [GRAPHIC] [TIFF OMITTED] T5671.015
    
    [GRAPHIC] [TIFF OMITTED] T5671.016
    
    [GRAPHIC] [TIFF OMITTED] T5671.017
    
    [GRAPHIC] [TIFF OMITTED] T5671.018
    
    [GRAPHIC] [TIFF OMITTED] T5671.019
    
    [GRAPHIC] [TIFF OMITTED] T5671.020
    
    [GRAPHIC] [TIFF OMITTED] T5671.021
    
    [GRAPHIC] [TIFF OMITTED] T5671.022
    
    [GRAPHIC] [TIFF OMITTED] T5671.023
    
    [GRAPHIC] [TIFF OMITTED] T5671.024
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             August 1, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5671.030
    
    [GRAPHIC] [TIFF OMITTED] T5671.031
    
    [GRAPHIC] [TIFF OMITTED] T5671.032
    
    [GRAPHIC] [TIFF OMITTED] T5671.033
    
    [GRAPHIC] [TIFF OMITTED] T5671.034
    
    [GRAPHIC] [TIFF OMITTED] T5671.035
    
    [GRAPHIC] [TIFF OMITTED] T5671.036
    
    [GRAPHIC] [TIFF OMITTED] T5671.037
    
    [GRAPHIC] [TIFF OMITTED] T5671.038
    
    [GRAPHIC] [TIFF OMITTED] T5671.039
    
    [GRAPHIC] [TIFF OMITTED] T5671.040
    
    [GRAPHIC] [TIFF OMITTED] T5671.041
    
    [GRAPHIC] [TIFF OMITTED] T5671.042
    
    [GRAPHIC] [TIFF OMITTED] T5671.043
    
    [GRAPHIC] [TIFF OMITTED] T5671.044
    
    [GRAPHIC] [TIFF OMITTED] T5671.045
    
    [GRAPHIC] [TIFF OMITTED] T5671.046
    
    [GRAPHIC] [TIFF OMITTED] T5671.047
    
    [GRAPHIC] [TIFF OMITTED] T5671.048
    
    [GRAPHIC] [TIFF OMITTED] T5671.049
    
    [GRAPHIC] [TIFF OMITTED] T5671.050
    
    [GRAPHIC] [TIFF OMITTED] T5671.051
    
    [GRAPHIC] [TIFF OMITTED] T5671.052
    
    [GRAPHIC] [TIFF OMITTED] T5671.053
    
    [GRAPHIC] [TIFF OMITTED] T5671.054
    
    [GRAPHIC] [TIFF OMITTED] T5671.055
    
    [GRAPHIC] [TIFF OMITTED] T5671.056
    
    [GRAPHIC] [TIFF OMITTED] T5671.057
    
    [GRAPHIC] [TIFF OMITTED] T5671.058
    
    [GRAPHIC] [TIFF OMITTED] T5671.059
    
    [GRAPHIC] [TIFF OMITTED] T5671.060
    
    [GRAPHIC] [TIFF OMITTED] T5671.061
    
    [GRAPHIC] [TIFF OMITTED] T5671.062
    
    [GRAPHIC] [TIFF OMITTED] T5671.063
    
    [GRAPHIC] [TIFF OMITTED] T5671.064
    
    [GRAPHIC] [TIFF OMITTED] T5671.065
    
    [GRAPHIC] [TIFF OMITTED] T5671.066
    
    [GRAPHIC] [TIFF OMITTED] T5671.067
    
    [GRAPHIC] [TIFF OMITTED] T5671.068
    
    [GRAPHIC] [TIFF OMITTED] T5671.069
    
    [GRAPHIC] [TIFF OMITTED] T5671.070
    
    [GRAPHIC] [TIFF OMITTED] T5671.071
    
    [GRAPHIC] [TIFF OMITTED] T5671.072
    
    [GRAPHIC] [TIFF OMITTED] T5671.073
    
    [GRAPHIC] [TIFF OMITTED] T5671.074
    
    [GRAPHIC] [TIFF OMITTED] T5671.075
    
    [GRAPHIC] [TIFF OMITTED] T5671.076
    
    [GRAPHIC] [TIFF OMITTED] T5671.077
    
    [GRAPHIC] [TIFF OMITTED] T5671.078
    
    [GRAPHIC] [TIFF OMITTED] T5671.079
    
    [GRAPHIC] [TIFF OMITTED] T5671.080
    
    [GRAPHIC] [TIFF OMITTED] T5671.081
    
    [GRAPHIC] [TIFF OMITTED] T5671.082
    
    [GRAPHIC] [TIFF OMITTED] T5671.083
    
    [GRAPHIC] [TIFF OMITTED] T5671.084
    
    [GRAPHIC] [TIFF OMITTED] T5671.085
    
    [GRAPHIC] [TIFF OMITTED] T5671.086
    
    [GRAPHIC] [TIFF OMITTED] T5671.087
    
    [GRAPHIC] [TIFF OMITTED] T5671.088
    
    [GRAPHIC] [TIFF OMITTED] T5671.089
    
    [GRAPHIC] [TIFF OMITTED] T5671.090
    
    [GRAPHIC] [TIFF OMITTED] T5671.091
    
    [GRAPHIC] [TIFF OMITTED] T5671.092
    
    [GRAPHIC] [TIFF OMITTED] T5671.093
    
    [GRAPHIC] [TIFF OMITTED] T5671.094
    
    [GRAPHIC] [TIFF OMITTED] T5671.095
    
    [GRAPHIC] [TIFF OMITTED] T5671.096
    
    [GRAPHIC] [TIFF OMITTED] T5671.097
    
    [GRAPHIC] [TIFF OMITTED] T5671.098
    
    [GRAPHIC] [TIFF OMITTED] T5671.099
    
    [GRAPHIC] [TIFF OMITTED] T5671.100
    
    [GRAPHIC] [TIFF OMITTED] T5671.101
    
    [GRAPHIC] [TIFF OMITTED] T5671.102
    
    [GRAPHIC] [TIFF OMITTED] T5671.103
    
    [GRAPHIC] [TIFF OMITTED] T5671.104
    
    [GRAPHIC] [TIFF OMITTED] T5671.105
    
    [GRAPHIC] [TIFF OMITTED] T5671.106
    
    [GRAPHIC] [TIFF OMITTED] T5671.107
    
    [GRAPHIC] [TIFF OMITTED] T5671.108
    
    [GRAPHIC] [TIFF OMITTED] T5671.109
    
    [GRAPHIC] [TIFF OMITTED] T5671.110
    
    [GRAPHIC] [TIFF OMITTED] T5671.111
    
    [GRAPHIC] [TIFF OMITTED] T5671.112
    
    [GRAPHIC] [TIFF OMITTED] T5671.113
    
    [GRAPHIC] [TIFF OMITTED] T5671.114
    
    [GRAPHIC] [TIFF OMITTED] T5671.115
    
    [GRAPHIC] [TIFF OMITTED] T5671.116
    
    [GRAPHIC] [TIFF OMITTED] T5671.117
    
    [GRAPHIC] [TIFF OMITTED] T5671.118
    
    [GRAPHIC] [TIFF OMITTED] T5671.119
    
    [GRAPHIC] [TIFF OMITTED] T5671.120
    
    [GRAPHIC] [TIFF OMITTED] T5671.121
    
    [GRAPHIC] [TIFF OMITTED] T5671.122
    
    [GRAPHIC] [TIFF OMITTED] T5671.123
    
    [GRAPHIC] [TIFF OMITTED] T5671.124
    
    [GRAPHIC] [TIFF OMITTED] T5671.125
    
    [GRAPHIC] [TIFF OMITTED] T5671.126
    
    [GRAPHIC] [TIFF OMITTED] T5671.127
    
    [GRAPHIC] [TIFF OMITTED] T5671.128
    
    [GRAPHIC] [TIFF OMITTED] T5671.129
    
    [GRAPHIC] [TIFF OMITTED] T5671.130
    
    [GRAPHIC] [TIFF OMITTED] T5671.131
    
    [GRAPHIC] [TIFF OMITTED] T5671.132
    
    [GRAPHIC] [TIFF OMITTED] T5671.133
    
    [GRAPHIC] [TIFF OMITTED] T5671.134
    
    [GRAPHIC] [TIFF OMITTED] T5671.135
    
    [GRAPHIC] [TIFF OMITTED] T5671.136
    
    [GRAPHIC] [TIFF OMITTED] T5671.137
    
    [GRAPHIC] [TIFF OMITTED] T5671.138
    
    [GRAPHIC] [TIFF OMITTED] T5671.025
    
    [GRAPHIC] [TIFF OMITTED] T5671.026
    
    [GRAPHIC] [TIFF OMITTED] T5671.027
    
    [GRAPHIC] [TIFF OMITTED] T5671.028
    
    [GRAPHIC] [TIFF OMITTED] T5671.029
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             August 1, 2012

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    Mr. Scher. We have had several engagements with PACOM, including 
conversations with Admiral Locklear, regarding the United States' 
defense strategy in the Asia-Pacific region and how PACOM's activities 
best support it. To ensure we are resourcing and executing the 
strategy, PACOM is aligning its joint exercises, exchanges, and 
operations, among other activities, to the strategy over time. It is 
also developing measures for and evaluating how its activities produce 
outcomes consistent with the Department's strategy and the broader 
United States Government effort to rebalance toward the Asia-Pacific 
region.
    More broadly, the Department, led by the Deputy Secretary, has 
established a group of the Department's senior leadership to focus on 
implanting the rebalance toward the Asia-Pacific region. The PACOM 
Commander will be an active participant in these senior leader 
engagements. [See page 33.]
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO
    Mr. Scher and Mr. Helvey. DOD is in the process of finalizing the 
next version of the implementation timeline for the distributed 
laydown. Once complete, the implementation timeline will be briefed to 
you and your staffs. [See page 32.]
             RESPONSE TO QUESTION SUBMITTED BY MS. HANABUSA
    Mr. Scher and Mr. Helvey. The Department of Defense must keep pace 
with changes in the Asia-Pacific security environment that pose 
profound challenges to international security, such as the rise of new 
powers, threats to free and open access to the maritime, air, and space 
domains, piracy, and the potential spread of weapons of mass 
destruction (WMD). The Department will maintain an enduring military 
presence in the Asia-Pacific region that provides a tangible 
reassurance that the United States is committed to Asia's security, 
economic development, and the prosperity that is essential to the 
region's success.
    In order to do so, the Department must continue to transition over 
time to a defense posture that is geographically distributed, 
operationally resilient, and politically sustainable. Although the 
threat of conventional conflict remains, U.S. military forces must also 
be positioned to respond to a wider range of challenges and 
opportunities in Asia. This requires a more geographically distributed 
presence for U.S. forces, with a focus on near-term opportunities to 
enhance our presence and access with our allies and partners in 
Southeast Asia and Oceania.
    The Department is also investing in the capabilities to ensure the 
ability of our forces to operate in a security environment in which 
access to and freedom of movement within the region are challenged. 
This includes taking steps to disperse key capabilities throughout the 
region, as well as strengthen our missile defense capabilities and 
those of our allies and partners. We must ensure that our allies and 
partners in the region are confident in the continued strength of our 
deterrence of the full range of potential threats to regional peace and 
stability.
    As we work to develop a geographically distributed and 
operationally resilient posture in the region, we are doing so in a way 
that is politically sustainable for us and for our allies and partners 
in the region. Domestically, this means that we have an obligation to 
clearly communicate to the American people and Congress our interests 
and objectives. This is the key to sustaining the domestic support 
necessary to make critical resource investments. In the region, this 
means pursuing and sustaining a presence that is sustainable for the 
host governments and the local communities that support us. [See page 
35.]
              RESPONSE TO QUESTION SUBMITTED BY MR. SABLAN
    Mr. Scher. We are currently continuing general discussions with the 
Government of Japan on the possibility of contributing to the 
development of land training ranges in the Commonwealth of Northern 
Mariana Islands, including Pagan. The April 2012 2+2 Statement 
indicated that a decision would be made by December 2012. We are 
considering a number of non-live fire and live-fire ranges that would 
enable vastly improved Air, Sea, Land and Subsurface training in the 
western Pacific. [See page 36.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             August 1, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. To what extent has congressional ambiguity, and in 
some cases inaction, potentially emboldened forces that are opposed to 
a continuing Marine presence in Okinawa? In other words, has U.S. 
congressional action, or inaction for that matter, made a local matter 
more difficult to navigate?
    Dr. Green. Both the United States and Japan will have to secure 
respective legislative approval for various aspects of the April 2012 
Security Consultative Committee Agreement and members of the U.S. 
Congress still have questions about Department of Defense (DOD) plans 
to implement that agreement. That said, delays on the part of the U.S. 
Congress will eventually have a negative impact on Japanese Diet 
support for the roughly $3 billion Japan has committed to the 
distributed MAGTF plan. It is already a matter of record that when the 
Guam relocation plan has hit political obstacles in the United States, 
it is big news in the Japanese media. For these reasons, we argue in 
the report and Dr. Hamre emphasizes in his cover letter to the 
Secretary of Defense that it will be important to demonstrate momentum 
to our allies in order to reassure them of the U.S. commitment to 
implement a geographically distributed, operationally resilient and 
politically sustainable forward presence. We also acknowledge in the 
report that we cannot independently validate the cost estimates or 
operational merit of the distributed MAGTF plan, though there are some 
positive elements geostrategically and operationally. The key will be 
to find ways to move forward on initial investments, while retaining 
flexibility as the Congress and Department of Defense are able to 
incrementally validate cost and operational estimates going forward.
    Ultimately, as we note in the report, the U.S. ability to shape the 
security environment will depend on continued momentum in commitments 
made to align force posture to the evolving security dynamics in the 
region. The current impasse between DOD and the Congress is not cost-
free in terms of U.S. strategic influence in the region. At the same 
time, the scope and cost uncertainties associated with some of DOD's 
realignment proposals have raised important concerns in the Congress 
that must be addressed.

    Ms. Bordallo. The report, as well as the DOD, talk a lot about 
``engagement'' in the Asia-Pacific region. In your opinion what does 
this mean and how does it support U.S. objectives? How can you measure 
the effectiveness of such engagements?
    Dr. Green and Mr. Berteau. Before exploring the role of engagement 
in supporting U.S. national security objectives, it is important first 
to define those objectives. As the CSIS report mentions, ``the 
underlying geostrategic objective for the United States in Asia and the 
Pacific has been to maintain a balance of power that prevents the rise 
of any hegemonic state from within the region that could threaten U.S. 
interests by seeking to obstruct American access or dominate the 
maritime domain.'' (page 13) Today, the most significant challenge is 
China's rising power, influence, and expectations of regional pre-
eminence. Other challenges include North Korean saber-rattling and 
possible instability, the region's vulnerability to natural ``mega-
disasters'', terrorism, and partner nations' economic dependence on 
maritime, cyberspace, and space commons. U.S. objectives require the 
ability to deter where possible and respond when necessary to each of 
these challenges.
    Engagement is a critical element of the overall U.S. approach to 
addressing these challenges and achieving U.S. objectives in the 
region. Courses in professional military education discuss what the 
Department of Defense calls ``elements of national power'', which 
include diplomatic, information, military, and economic tools that 
allow the United States to advance national interests and shape the 
strategic environment. The full complement of these tools enables the 
United States to pursue national security objectives, and they allow 
the U.S. military to partner, plan, exercise, and operate with the 
military (and sometimes security) forces of friendly foreign 
governments. Such activities constitute what we call ``engagement,'' 
which also may include the careful provision of equipment, education 
and training, and advice to these foreign forces. As the report states:

          U.S. forces that are forward deployed and persistently 
        engaged shape the strategic environment in the Asia Pacific 
        region by:

                  Assuring allies and partners of U.S. security 
                commitments, which encourages solidarity against 
                challenges to their interests and discourages 
                unilateral escalation in a crisis;

                  Dissuading Chinese coercion or North Korean 
                aggression by demonstrating solidarity with and among 
                allies and partners;

                  Shoring up the security and self-capacity of 
                vulnerable states so that they are neither targets of 
                coercion or expansion nor havens for violent 
                extremists; and

                  Reassuring China where possible through engagement in 
                bilateral and multilateral security cooperation and 
                confidence-building on common challenges (e.g., 
                counter-proliferation, counter-terrorism).

        U.S. forces that are forward deployed and persistently engaged 
        set the stage for more effective deterrence and better 
        contingency capabilities by:

                  Shaping requirements, doctrine, tactics, techniques, 
                and procedures of U.S. allies and partners for more 
                competent coalitions across the range of possible 
                contingencies (with Australia, Japan, and the ROK at 
                the higher spectrum of intensity and with other allies 
                and partners at the lower spectrum of intensity);

                  Networking those allies and partners with each other 
                to enable more effective coalitions when needed (e.g., 
                U.S.-Japan-Australia, U.S.-Japan-ROK);

                  Gaining familiarity with the immediate security 
                environment and with joint and/or interoperable 
                interaction with other allied and partner forces;

                  Increasing overall maritime domain awareness for 
                individual countries as well as across the Indo-Pacific 
                littoral and ensuring the integrity of the First and 
                Second Island Chains with respect to adversaries in a 
                conflict;

                  Complicating the military planning of potential 
                adversaries by identifying and developing arrangements 
                for access, prepositioning, over-flight, and other 
                needs, thereby dispersing possible targets and 
                providing redundancy; and

                  Identifying what planners call ``off ramps'' for 
                crisis avoidance and de-escalation, if necessary, 
                through regular direct and indirect military-to-
                military engagement. (page 17)

    Though various Components of the U.S. military do already engage 
with friendly foreign nations, the CSIS study notes that ``legacy 
planning processes, focus on Operations Enduring Freedom and Iraqi 
Freedom/New Dawn, and the complexity of planning simultaneous missions 
for shaping and deterrence have combined to create a series of apparent 
disconnects in conceptualizing and implementing U.S. strategy.'' (page 
90) The development and implementation of a robust engagement plan, one 
that allows U.S. forces to create and maintain valuable relationships 
with partner nations, is critical to shaping the security environment 
of the Asia Pacific region. Thus, the CSIS report's first 
recommendation is that the Department of Defense better align its 
engagement strategy under the Pacific Command and across the Department 
to shape the environment in such a way that the United States can 
continue to pursue its national security objectives.
    In terms of metrics for engagement effectiveness, it is important 
to recognize that engagement--like diplomacy or defense--is a concept. 
It may be measured in numbers of military events (e.g., a training 
exercise, planning conferences, operations), military equipment 
provided, flows of commercial goods through the region, and numbers of 
troublesome security events (e.g., attacks on fishing vessels, missile 
launches), but such quantifiable measures are insufficient for 
considering the full impact of building relationships and assuring 
security. Assessing improvement in the overall environment must involve 
opinion polls of local residents regarding their feelings of safety and 
security, as well as feelings toward the United States as a reliable 
partner and toward China, North Korea, terrorism, and other security 
challenges. Also, do U.S. military planners find it easier or harder to 
work with foreign partners? What are intelligence analysts noting about 
nations' policies, leaders, and rhetoric? The answers to questions like 
these enable the United States to measure the value of specific 
engagement activities. In the long run, measures also need to cover the 
entire region, not just the engagement with one country at a time.

    Ms. Bordallo. The report, as well as the DOD, talk a lot about 
``engagement'' in the Asia-Pacific region. In your opinion what does 
this mean and how does it support U.S. objectives? How can you measure 
the effectiveness of such engagements?
    Mr. Scher and Mr. Helvey. Forward engagement is about the United 
States working with our friends, allies, and partners to ensure that we 
can further U.S. interests and address any threats. We seek to remain 
the security partner of choice in the region, while encouraging others 
to share the burden of furthering common interests. Our forward 
presence and engagement play an essential role in promoting strong 
partnerships that strengthen the capabilities of the Pacific nations to 
defend and secure themselves. Building strong partnerships in the Asia-
Pacific region also requires us to sustain and enhance U.S. military 
strength there.
    Engagement includes increased military-to-military engagement with 
China, with whom we will seek to deepen our partnership in areas such 
as humanitarian assistance, counter-drug, and counter-proliferation 
efforts.
    The Secretary has directed all of the geographic Combatant 
Commanders to think and plan strategically when it comes to security 
cooperation, including all their regional activities--from joint 
exercises, exchanges, and operations to more traditional forms of 
security assistance. This direction also requires them to develop 
measures for and evaluate how their engagement activities produce 
outcomes consistent with the Department's Strategic Guidance and the 
broader United States Government effort to rebalance toward the Asia-
Pacific region.
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Mr. Berteau, how are our allies measuring our 
commitment to the region? Are some of these same metrics increasing 
China's security concerns or defense development?
    Mr. Berteau. Allies in the Asia Pacific region examine closely the 
U.S. level of commitment and have heightened sensitivities to changes, 
whether real or perceived, in this commitment. In addition to economic 
and diplomatic engagement with nations in the region, U.S. force 
posture through Asia and the Pacific figures prominently as a 
reflection of U.S. commitment. One needs only to read news headlines in 
Japan and the Republic of Korea, especially when the U.S. presence in 
those nations is under negotiation, to witness the significant role 
that such presence plays across the region. Other nations also host or 
otherwise support U.S. forces, ranging in footprint from small, 
rotational units that provide humanitarian or counterterrorism training 
to larger deployments that participate in multilateral exercises or 
disaster relief operations.
    In fact, the type and costs of force posture--including its 
attendant capabilities--are also important reflections of U.S. 
commitment. As noted in the CSIS report, ``U.S. force posture must 
demonstrate a readiness and capacity to fight and win, even under more 
challenging circumstances associated with A2/AD (anti-access/area 
denial) and other threats . . . Demonstrating such capacity is not 
automatic; one way to undercut dramatically the regional confidence in 
the U.S. commitment and the American ability to shape decisions and 
preserve peace would be to adopt a posture that pulled back from the 
Western Pacific and focused only on the survivability of U.S. forces 
and reductions in annual costs of forward presence.'' (pages 17-18) It 
is not enough to have U.S. forces in the region. Allies and partners 
watch closely to gauge whether those forces provide the needed 
capabilities to help address security concerns, from humanitarian 
assistance/disaster relief to conflict prevention to more kinetic 
activities (should the need arise).
    Regarding Chinese reactions, it is a challenge to convince leaders 
in Beijing that the overarching U.S. goal in the region is to shape a 
peaceful environment and not to contain an adversarial China. As the 
CSIS report states,
    Beijing is well aware of U.S. strategies to shape the regional 
environment and has developed counter-containment and counter-
intervention strategies in parallel. The counter-intervention 
strategies are usually thought of in terms of A2/AD military 
capabilities (described below) but also include diplomatic, 
information, and economic sources of leverage against the U.S. 
political system and particularly weaker regional states in order to 
complicate U.S intervention in Taiwan, South China Sea, or other 
regional crises that could involve China. The counter-containment 
strategies aim at weakening U.S. alignment with other states in the 
region and involve instruments that range from trade agreements and 
diplomacy to bribery and individual coercion. (page 40)
    However, it is important to note that economic and diplomatic 
engagement between China and its neighbors does not necessarily 
threaten U.S. interests. In a globalized economy, Chinese economic 
cooperation is critical to the success of many neighbors that might 
otherwise be subject to problems linked to poor or struggling 
economies, such as terrorism and crime. Moreover, while the United 
States and China will continue to vie for influence, Beijing has 
premised its counter-containment strategies on a mistaken 
interpretation of U.S. shaping activities as ``containment'' in the 
Cold War sense of the word. The report notes that ``in fact, the United 
States does not seek to limit China's development or international 
engagement, as was the case vis-a-vis the Soviet Union during the Cold 
War. Thus far, efforts to reassure the Chinese elite and people of this 
fact have had mixed success . . . Distinguishing between legitimate and 
manufactured concerns in dialogue with Beijing will require careful 
attention.'' (page 40) For that reason, the CSIS study team recommended 
that the Department of Defense better align engagement strategy under 
the Pacific Command and across the Department and highlighted areas for 
further investment, including ``more reliable mechanisms with the PLA 
[China's People's Liberation Army] for military-to-military dialogue, 
crisis management, transparency, and avoiding incidents at sea and in 
cyber and outer space.'' (page 22)
    Ms. Speier. How can we measure our successes when it comes to 
capabilities?
    Mr. Berteau. The United States may measure military capabilities by 
considering three layers of analysis:
    What are the resources brought to bear;
    What are the ``conversion capabilities''; and
    What is the U.S. combat proficiency?
    (Note: For a more detailed explanation of how to measure military 
capability, please see Measuring National Power in the Postindustrial 
Age by Ashley J. Tellis, Janice Bially, Christopher Layne, and Melissa 
McPherson, RAND Corporation, 2000.)
    On the resource side, one can determine quantitative aspects of 
capabilities. These elements include: defense budgets; manpower 
(numbers and types); infrastructure; research, development, testing, 
and evaluation institutions; industrial base; and equipment inventory, 
logistics support, and other investments.
    To convert these elements into military capability, one can also 
consider, inter alia: the geostrategic environment and threats therein; 
Department of Defense strategies and plans; relations with nations in 
the region; doctrine, training, and organization of military assets; 
and innovation. These ``conversion capabilities'' allow the U.S. 
military to translate resources into capabilities.
    Finally, it is not enough to have the manpower, equipment, 
infrastructure, strategies, doctrine, training, and other elements 
already mentioned. To realize military capabilities, U.S. forces must 
also have the readiness levels and demonstrated proficiency to achieve 
the missions assigned to them.
    Ms. Speier. How can we measure our successes when it comes to 
capabilities?
    Mr. Berteau. Please see the answer to the previous question.

    Ms. Speier. Mr. Scher, as you've acknowledged, our strategy 
encompasses many facets, including diplomatic and economic objectives. 
These different approaches, however, can sometimes undermine each 
other, and military force is frequently the signal that drowns out our 
other efforts. What are you doing to prevent this from occurring, and 
how are you measuring whether our growing military capabilities are 
undermining our economic well-being?
    Mr. Scher. As I highlighted in my opening statement, the Defense 
Department's efforts to rebalance toward the Asia-Pacific region are 
part of a broader United States Government effort to increase attention 
and investment there. The Department's investments in its forward 
defense posture, presence, and activities in the region are thus not 
simply about the application of military force, but about positively 
shaping the security environment and ensuring regional peace and 
stability. We will continue to work with our interagency partners to 
synchronize a whole-of-government approach to ensure we enhance our 
defense capabilities and activities in the region in support of our 
economic well-being, as well as the well-being of our allies and 
partners in the region.
    Ms. Speier. Mr. Scher, the CSIS report raises concerns about a gap 
between strategy and defense resources. Is the Defense Department 
pursuing any strategies to control costs?
    Mr. Scher. Today and into the future the United States faces 
security challenges across the globe. As we look to implement our 
rebalance toward the Asia-Pacific region, we must be mindful of 
pressing priorities elsewhere in the world and across the defense 
program, which compete for scarce defense resources. We are working to 
ensure that we do have the resources identified and in place to fully 
resource our rebalance toward the Asia-Pacific region, but fully 
realizing our Defense Strategic Guidance will not happen in one budget 
cycle. The Secretary has directed the Military Departments and other 
Components to build on our Fiscal Year 2013 investments in the Fiscal 
Year 2014 budget proposal now under development. The Department will 
continue to assess priorities across regions and make appropriate, 
deliberate choices to align our defense strategy to resources.
    Ms. Speier. How receptive are our allies to non-military strategies 
and cooperation?
    Mr. Scher. The Defense Department's rebalance toward the Asia-
Pacific region is only part of a broad U.S. Government effort to focus 
more attention and cooperation there; this includes non-military 
strategies to promote strong partnerships in support of common 
interests. From our discussions with allies and partners, it appears 
that they are quite receptive to non-military strategies and 
cooperation.
    Ms. Speier. Mr. Scher, how is the Defense Department mitigating the 
challenges of capability risks and declining defense resources? What 
would you consider to be the Defense Department's top acquisition 
priority? What is the highest priority for our allies, in terms of 
foreign military sales?
    Mr. Scher. As Secretary Panetta noted in his comments on the CSIS 
report, DOD's efforts to implement the 2012 Defense Strategic Guidance, 
including its key tenet of rebalancing toward the Asia-Pacific region, 
will require judicious investment in the highest payoff initiatives and 
capabilities. The Defense Strategic Guidance and the President's Budget 
Request for Fiscal Year 2013 have placed the Department on a path to 
meet this challenge, and the Deputy Secretary has created a process to 
ensure the Department continues to make appropriate, deliberate choices 
to align our defense strategy to resources.
    If the United States is to remain a credible security partner in 
the Asia-Pacific region, we must be able to retain our ability to 
credibly deter potential adversaries, to prevent them from achieving 
their objectives, and to advance common interests. Accordingly, the 
U.S. defense program is investing in capabilities across a range of 
missions, as outlined in the Defense Strategic Guidance, to include 
maintaining the unique ability of the Joint Force to project power even 
in areas in which our access and freedom to operate are challenged. To 
this end, investments include stealthy, multi-role aircraft; more 
capable long-range strike systems; modern, VIRGINIA-class submarines; 
more capable theater missile defense systems; enhanced airfield damage 
repair capability; a new, penetrating bomber; and enhancements to the 
resiliency and effectiveness of critical space-based capabilities and 
our computer network defense, network exploitation, and network attack 
systems. These and other capabilities are central to reassuring allies 
and partners in the Asia-Pacific region and shaping the security 
environment, while also providing forward capabilities appropriate to 
deter and defeat aggression. No one program can provide this critical 
capability.
    There is also no singular priority for our allies and partners in 
terms of foreign military sales. Rather, we will continue to work with 
allies and partners to address common security challenges, one piece of 
which will be to building their capability and capacity in the areas 
most appropriate to how we will address these common security 
challenges.

    Ms. Speier. Mr. Helvey, while we in Congress frequently struggle to 
think beyond the next fiscal year, the Chinese tend to have a longer 
view of time and national competition. As the Chinese continue buying 
our debt and we continue to pursue unsustainable deficit spending--
including defense spending that exceeds China's budget six times over--
how do China's strategic thinkers measure their national strength 
against the United States? How could our significant deficit undermine 
this pivot to the Pacific?
    Mr. Helvey. People's Liberation Army (PLA) leaders and strategists 
often discuss China's strategy in terms of building ``comprehensive 
national power'' (zonghe guoli). Comprehensive national power (CNP) is 
the concept by which China's strategic planners use qualitative and 
quantitative variables to evaluate and measure China's standing in 
relation to other nations. CNP incorporates both soft, internally-
oriented indicators of strength (e.g., economic prosperity, domestic 
cohesion, and cultural influence) and hard, externally-oriented 
measures (e.g., the size of a state's nuclear arsenal, territory, 
military capability, diplomatic influence, economic influence, and 
international prestige).
    The rebalance to the Asia-Pacific, a ``whole-of-government'' 
effort, comes at a time when the United States confronts a serious 
deficit and debt problem that is itself a national security risk that 
is squeezing both the defense and domestic budgets. Even facing these 
considerable pressures, the U.S. Government must not lose sight of 
national security interests as it makes difficult fiscal decisions. 
Instead, the U.S. Government seeks a balanced approach.
    During the last year, we conducted an intensive review to guide 
defense priorities and spending over the coming decade, in light of 
strategic guidance from the President and the recommendations of this 
Department's senior military and civilian leadership. This process has 
enabled us to assess risk, set priorities, and make difficult choices. 
The Department would need to make a strategic shift regardless of the 
nation's fiscal situation.
    The U.S. Armed Forces will remain capable across the spectrum. We 
will be fully prepared to protect our interests, defend our homeland, 
and support civil authorities. We will continue to strengthen key 
alliances, build partnerships, and emphasize building their capacity to 
defend their own territory and interests more effectively through 
better use of diplomacy, development, and security force assistance. 
Whenever possible, we will develop low-cost and small-footprint 
approaches to achieve our security objectives, emphasizing rotational 
deployments and exercises, and other innovative approaches that 
maintain presence.
    Ms. Speier. Mr. Helvey, do you believe that you have enough 
personnel with experience living in China and speaking Chinese to 
underpin our assumptions and strategy moving forward?
    Mr. Helvey. Yes. The Department has exceptionally well-qualified 
country directors, including several who speak and read Chinese and 
have experience living in China and Taiwan.
    Ms. Speier. How receptive are our allies to non-military strategies 
and cooperation?
    Mr. Helvey. U.S. alliances are based not only on shared security 
interests, but also on shared economic and political goals. Our 
relationships with U.S. allies are broad-based, underpinned by trade 
arrangements, membership in economic groupings like the Asia-Pacific 
Economic Cooperation, and shared respect for democracy and human 
rights. In part because of these dynamics, the U.S. rebalance to the 
Asia-Pacific is based on a whole-of-government approach emphasizing the 
importance of the region to the security, economic, and political 
future of the United States.
    Ms. Speier. Mr. Helvey, how have our allies responded to the 
Pacific Pivot in their own defense budget decisions?
    Mr. Helvey. Given that Department announcements regarding the 
rebalance only took place in January 2012, the budget cycles of many 
U.S. allies have not occurred. We are working with our allies to 
encourage them to prioritize capability development that supports 
shared goals in the Asia-Pacific region.
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. You commented on the need for avoiding multiple 
points of failure in our posture. Can you comment on how the organic 
base and our arsenals specifically can aid in this need?
    Dr. Green and Mr. Berteau. Throughout the history of the United 
States, the military has relied on a combination of support from the 
private sector and from organic, in-house capabilities. That balance 
changes over time, depending on factors such as technical capabilities, 
the economics of supply and demand, and cost. The balance also depends 
on the requirements of the Department of Defense (DOD). In part, the 
presence of capable in-house organic DOD capacity provides some 
insurance against points of failure in private sector capability, and 
the reverse is also true. The requirements on the books today, however, 
have not been updated to reflect the future force demands that the U.S. 
military will face. This disconnect of requirements to capability has 
already led to problems. For example, in the 2005 round of DOD base 
closures, decisions to close ammunition plants were made using data 
that were not updated for Operations Enduring Freedom and Iraqi 
Freedom. The most important aid that the DOD organic base and arsenal 
community could provide to DOD would be to push hard for an update on 
requirements, a better and forward-looking determination of what needs 
to be sustained as core DOD in-house capability, and an alignment of 
resource allocations in the budget and across the Future Years Defense 
Program to focus first on supporting that core. Instead, decisions are 
made more on the lines of marginal cost and contracting convenience 
than on core capability requirements and avoiding single points of 
failure.
    Mr. Schilling. In your fourth recommendation you stated the need to 
increase stockpiles and replenish and upgrade equipment and supplies. 
Can you speak to how vital the organic base is to this work?
    Dr. Green and Mr. Berteau. The CSIS report highlights the 
importance of increased stockpiles of critical ammunition and of 
replenished, upgraded equipment and supplies to enable U.S. forces to 
address the myriad of security challenges in the Asia Pacific region. 
As noted in the report:
          Global force presence is assisted by prepositioning personnel 
        and equipment in crucial areas to resupply ships and aircraft, 
        as well as provide havens for equipment repairs. Prepositioning 
        facilitates the fast deployment of equipment and supplies to 
        personnel in areas of contingency operations. Positioned 
        stocks, both afloat and ashore, support timely movement of 
        essential military supplies between operating areas with 
        decreased travel time, transport cost, and without reliance on 
        other nation's transportation networks into theater. 
        Prepositioning stocks also permits the swift arrival of 
        personnel to theater while supplies are transported separately 
        to a specified link-up point once a port or airfield has been 
        secured by early arriving forces. (page 59)
    The U.S. defense industrial base is well-positioned to assist in 
activities to increase stockpiles and replenish and upgrade equipment 
and supplies. The answer to the previous questions speaks to the need 
to identify Department of Defense requirements for core capabilities. 
That same logic applies to this question. In particular, ammunition 
requirements for both production capacity and stockpile requirements 
are in need of updating. It would be useful for the Congress to engage 
with the Department of Defense to identify ways to support that 
updating.
    Mr. Schilling. Your statement talked about creating an effective 
deterrent by working closely with allies. Does this include greater 
support for U.S. foreign military sales?
    Dr. Green and Mr. Berteau. The CSIS report reflects the conviction 
that working with allies and partner nations is essential in the Asia 
Pacific region. U.S. forces rely on access, basing, and overflight 
rights. They also leverage capabilities that friendly foreign nations 
can bring to bear along the full spectrum of military operations, from 
humanitarian assistance/disaster relief efforts to counterterrorism 
activities to combat operations. To be effective and efficient, the 
United States must be familiar with allies' and partners' military 
capabilities and must highlight interoperability as a shared goal.
    That familiarity and interoperability can be achieved through the 
use of several foreign assistance tools. The vast majority of these 
tools are subject to the direct oversight of the Department of State, 
as codified in title 22 of the United States Code. These tools include 
foreign military sales (FMS) and international military education and 
training. They also include, but are not limited to, provision of 
excess defense articles--meaning, equipment that U.S. forces no longer 
require or that no longer meets U.S. requirements--and assistance in 
direct commercial sales of military goods and services to foreign 
governments. As the United States rebalances its force posture to the 
Asia Pacific region, it is sensible that the Department of State, in 
consultation with the Department of Defense, analyze the needs of 
allies and partners in that region and support foreign assistance, 
including FMS, where such assistance makes sense.
    Further, the CSIS report is predicated on a more integrated U.S. 
approach to both FMS and foreign direct sales. This integration is part 
of the larger recommendation that the Department of Defense better 
align engagement strategy under the Pacific Command and across the 
Department and the entire Federal Government.
    Mr. Schilling. You stated that the strategy for the DOD force 
posture must be better articulated. How do you recommend we do this?
    Dr. Green and Mr. Berteau. In the course of the CSIS study, we 
interviewed hundreds of current and former U.S. civilian and military 
officials, subject matter experts, and foreign officials. Based on 
these interviews and a rigorous literature review, the CSIS study team 
concluded that the Department of Defense's (DOD's) focus on the Asia 
Pacific region--implied in the Secretary of Defense's June 2011 speech 
in Singapore and reinforced by Sustaining U.S. Global Leadership: 
Priorities for 21st Century Leadership and the President's fiscal year 
2013 budget proposal earlier this year--has not yet been publicly 
articulated in ways that enable resource decisions within the United 
States and by U.S. partners and allies. While there may have been 
general agreement between the Office of the Secretary of Defense and 
the Pacific Command leadership, stakeholders at various levels 
throughout the Department and the interagency, as well as from various 
countries, had vastly different interpretations of what ``rebalancing 
to the Asia Pacific region'' means in practical terms. Those different 
interpretations will remain until a better articulation of the overall 
strategy is made public, and that strategy can be tracked to specific 
resource decisions in the Federal budget and in DOD force posture 
decisions.
    In addition, it appears that the public and legislative bodies, 
both in the United States and abroad, have various interpretations of 
the force posture strategy. These diverse interpretations indicated a 
lack of successful articulation. DOD cannot expect the U.S. Congress to 
align its decisions with a strategy that has not been laid out in 
sufficient detail. The Congress is correct in its desire to require 
such detail before decisions are made.
    At the same time, however, the situation in the Asia Pacific region 
is fluid and continually changing. Neither DOD nor the Congress can 
wait until the last fact is known before making the decision to take 
initial steps. For that reason, the CSIS report recommends that 
Congress approve initial steps, including funding for improved training 
facilities in the Pacific. These initial steps make sense regardless of 
the long-term evolution of U.S. forces or changes in the defense 
budget.

    Mr. Schilling. What exactly would Sequestration do to the ability 
for the DOD to rebalance to the Asia-Pacific?
    Mr. Scher. As Secretary Panetta noted in his comments on the Center 
for Strategic and International Studies assessment, sequestration would 
devastate the Department's ability to advance and sustain enhancements 
to our defense presence and posture in the Asia-Pacific region and 
elsewhere.

    Mr. Schilling. How important is a strong industrial base to DOD 
efforts to under-gird re-balancing efforts towards the Asia-Pacific 
region through capability investments?
    Mr. Scher and Mr. Helvey. A strong industrial base is essential to 
the Department's efforts to invest in the capabilities appropriate to 
reassure allies and partners in the Asia-Pacific region and shape the 
security environment, while also providing forward capabilities 
appropriate to deter and defeat aggression. The Department needs, and 
will continue to invest in, a strong industrial base to implement the 
vision that we have for our future armed forces, including their 
growing role in the Asia-Pacific region.

    Mr. Schilling. What exactly would Sequestration do to the ability 
for the DOD to rebalance to the Asia-Pacific?
    Mr. Helvey. As Secretary Panetta noted in his comments on the 
Center for Strategic and International Studies assessment, 
sequestration would devastate the Department's ability to advance and 
sustain enhancements to our defense presence and posture in the Asia-
Pacific region and elsewhere. Because the sequestration statute does 
not propose to make cuts strategically, we remain more focused on 
preventing the sequester from occurring than assessing its effects.
                   QUESTIONS SUBMITTED BY MR. SABLAN
    Mr. Sablan. The CSIS report makes the recommendation to ``Move 
forward with funding necessary for the development of training ranges 
at Tinian Island and other CNMI locations. Work with the Government of 
Japan to leverage Japanese funding commitments in order to realize 
early joint-bilateral training opportunities.'' Can the witnesses 
comment on what strategic value there is in developing these training 
ranges? What capabilities does Tinian, and other locations in the 
Northern Mariana Islands, offer the U.S. military that they don't 
currently have? Further, what value will these training ranges provide 
to our allies in the region?
    Dr. Green and Mr. Berteau. The strategic value of developing 
training ranges in places like Tinian and other Commonwealth islands is 
based on three elements. First, the ranges are on territory controlled 
by the United States and therefore are not subject to political 
developments in other countries. Second, they provide essential 
training capacity for U.S. forces that are dispersed across the Asia 
Pacific, reducing the need for additional training investments 
elsewhere. Third, these training facilities enable more combined 
training with forces from U.S. allies and partners across the region. 
Increased combined training increases the capability of partners and 
allies, enables the United States to expand and focus engagement 
activities with those allies and partners, and familiarizes military 
personnel and forces with the requirements for joint and combined 
operations. This is particularly true with respect to joint training 
for amphibious operations, for which purpose ranges like Tinian are 
well suited. We note that Japan, Korea, Australia, New Zealand, and 
Canada are seeking to develop U.S. Marine Corps-type expeditionary and 
amphibious capabilities.

    Mr. Sablan. There are currently several environmental impact 
statements being conducted in the Pacific region. What is being done at 
the OSD level to ensure appropriate coordination among all these EIS 
actions? For example, there may be synergies by establishing a Divert 
Field at Tinian which could also enable better training opportunities 
for the Marines and other Services. I ask this because the CSIS report 
indicates that there seems to be a disconnect between PACOM's desired 
actions and what the Department is currently budgeting and how it's 
articulating strategic requirements.
    Mr. Scher and Mr. Helvey. There are a number of environment impact 
statements (EIS) being conducted in the Commonwealth of Northern 
Mariana Islands (CNMI) and Guam. The Marine Corps' planned relocation 
to the Marianas and Pacific Air Forces' expanding mission requirements 
in the western Pacific have many common requirements, including 
airfield facilities, port facilities, and associated logistics. This 
commonality may present the opportunity for significant savings. The 
Military Departments coordinate directly in areas of potential mutual 
benefit/use, with U.S. Pacific Command (USPACOM) and Office of the 
Secretary of Defense (OSD) oversight as appropriate.
    As part of the National Environmental Policy Act (NEPA) process, 
the Department of the Navy is evaluating a range of alternatives 
through the development of a Supplemental Environmental Impact 
Statement (SEIS) for a proposed Live Fire Training Range Complex, 
Marine Corps cantonment, and family housing on Guam. The training 
complex is necessary to support training requirements for the Marines 
relocating from Okinawa to Guam. The Notice of Intent for this effort 
was published in February 2012.
    The consideration of training ranges in the CNMI will be 
incorporated in a USPACOM-led Environmental Impact Statement that would 
enable vastly improved air, sea, land, and subsurface training in the 
western Pacific. There is a variety of non-live-fire and live-fire 
ranges being considered under this EIS, and a determination will not be 
made until the completion of that study.
    U.S. Air Forces Pacific (PACAF) recently published the Draft 
Environmental Impact Statement for Divert Activities and Exercises, 
Guam and the CNMI. The EIS listed Saipan International Airport and 
Tinian International Airport as the two primary alternatives, with 
Saipan selected as the current preferred alternative.
    Mr. Sablan. Can you comment on the current status of negotiations 
with Japan on ensuring that direct contributions could be used to 
create and improve current training ranges in Tinian? What projects is 
the Department currently contemplating on constructing to enhance 
training opportunities in Tinian?
    Mr. Scher and Mr. Helvey. We are currently continuing general 
discussions with the Government of Japan on the possibility of 
contributing to the development of land training ranges in the 
Commonwealth of Northern Mariana Islands. The April 2012 2+2 Statement 
indicated that a decision would be made by December 2012.
    Mr. Sablan. Secretary Panetta agrees with the CSIS report's 
assessment that the training ranges in the region are of significance 
to military readiness and potential military operations in the PACOM 
AOR. One recommendation is to add training areas and build facilities 
on the island of Pagan in the Northern Mariana Islands.
    Mr. Scher and Mr. Helvey. There is consideration of Pagan as a 
location for amphibious and live-fire training on ranges in the western 
Pacific.
    Mr. Sablan. Can you comment on DOD's plans for the island of Pagan, 
including plans on the necessary funding required to develop Pagan into 
a suitable training area? Are there any potential barriers to the use 
of Pagan, and have consultations with CNMI Government officials 
resulted in support of Pagan's use for military training?
    Mr. Scher and Mr. Helvey. I understand that Government officials in 
the Commonwealth of the Northern Mariana Islands are broadly supportive 
of the concept of developing ranges on Pagan.

                                  <all>

</pre></body></html>
